<html>
<title> - NEXTGEN: A REVIEW OF THE RTCA MID-TERM IMPLEMENTATION TASK FORCE REPORT</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                        NEXTGEN: A REVIEW OF THE
                      RTCA MID-TERM IMPLEMENTATION
                           TASK FORCE REPORT
=======================================================================

                                (111-73)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION
                               __________

                            October 28, 2009
                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure




                              __________

                        U.S. GOVERNMENT PRINTING OFFICE
53-122 PDF                    WASHINGTON: 2009

________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; 
(202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 
20402-0001










             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           ROBERT E. LATTA, Ohio
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
JOHN J. HALL, New York               ANH ``JOSEPH'' CAO, Louisiana
STEVE KAGEN, Wisconsin               AARON SCHOCK, Illinois
STEVE COHEN, Tennessee               PETE OLSON, Texas
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
VACANCY

                                  (ii)

  
?

                        Subcommittee on Aviation

                 JERRY F. COSTELLO, Illinois, Chairman

RUSS CARNAHAN, Missouri              THOMAS E. PETRI, Wisconsin
PARKER GRIFFITH, Alabama             HOWARD COBLE, North Carolina
MICHAEL E. McMAHON, New York         JOHN J. DUNCAN, Jr., Tennessee
PETER A. DeFAZIO, Oregon             VERNON J. EHLERS, Michigan
ELEANOR HOLMES NORTON, District of   FRANK A. LoBIONDO, New Jersey
Columbia                             JERRY MORAN, Kansas
BOB FILNER, California               SAM GRAVES, Missouri
EDDIE BERNICE JOHNSON, Texas         JOHN BOOZMAN, Arkansas
LEONARD L. BOSWELL, Iowa             SHELLEY MOORE CAPITO, West 
TIM HOLDEN, Pennsylvania             Virginia
MICHAEL E. CAPUANO, Massachusetts    JIM GERLACH, Pennsylvania
DANIEL LIPINSKI, Illinois            CHARLES W. DENT, Pennsylvania
MAZIE K. HIRONO, Hawaii              CONNIE MACK, Florida
HARRY E. MITCHELL, Arizona           LYNN A. WESTMORELAND, Georgia
JOHN J. HALL, New York               JEAN SCHMIDT, Ohio
STEVE COHEN, Tennessee               MARY FALLIN, Oklahoma
LAURA A. RICHARDSON, California      VERN BUCHANAN, Florida
JOHN A. BOCCIERI, Ohio               BRETT GUTHRIE, Kentucky
NICK J. RAHALL, II, West Virginia
CORRINE BROWN, Florida
ELIJAH E. CUMMINGS, Maryland
JASON ALTMIRE, Pennsylvania
SOLOMON P. ORTIZ, Texas
MARK H. SCHAUER, Michigan
VACANCY
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               TESTIMONY

Bolen, Ed, President and CEO, National Business Aviation 
  Association....................................................    32
Dillingham, Dr. Gerald, Director, Physical Infrastructure Issues, 
  U.S. Government Accountability Office..........................     6
Gilligan, Margaret, Associate Administrator for Aviation Safety, 
  Federal Aviation Administration................................     6
Hennig, Jens C., Vice President of Operations, General Aviation 
  Manufacturers Association......................................    32
Jenny, Margaret T., President, RTCA, Inc.........................     6
Krakowski, Hank, Chief Operating Office, Air Traffic 
  Organization, Federal Aviation Administration..................     6
May, James C., President and CEO, Air Transport Association......    32
Planzer, Neil, Vice President-Strategy, Boeing Air Traffic 
  Management, on behalf of the Aerospace Industry Association....    32
Scovel, III, Honorable Calvin L., Inspector General, U.S. 
  Department of Transportation...................................     6
Sinha, Dr. Agam N., Senior Vice President and General Manager, 
  The Mitre Corporation, Center for Advanced Aviation System 
  Development....................................................     6
Wright, Dale, Director of Safety and Technology, National Air 
  Traffic Controllers Association................................    32

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    53
Cohen, Hon. Steve, of Tennessee..................................    54
Costello, Hon. Jerry F., of Illinois.............................    55
Mitchell, Hon. Harry E, of Arizona...............................    65
Oberstar, Hon. James L., of Minnesota............................    66
Richardson, Hon. Laura, of California............................    72

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Bolen, Ed........................................................    77
Dillingham, Dr. Gerald...........................................    90
Gilligan, Margaret...............................................   145
Hennig, Jens C...................................................   135
Jenny, Margaret T................................................   137
Krakowski, Hank..................................................   145
May, James C.....................................................   175
Planzer, Neil....................................................   181
Scovel, III, Honorable Calvin L..................................   195
Sinha, Dr. Agam N................................................   209
Wright, Dale.....................................................   217

                       SUBMISSIONS FOR THE RECORD

Boccieri, Hon. John, a Representative in Congress from the State 
  of New York, letter from the Ohio Delegation...................    25
Bolen, Ed, President and CEO, National Business Aviation 
  Association, responses to questions for the Record from Rep. 
  Costello, a Representative in Congress from the State of 
  Illinois.......................................................    87
Dillingham, Dr. Gerald, Director, Physical Infrastructure Issues, 
  U.S. Government Accountability Office, responses to questions 
  for the Record from Rep. Costello, a Representative in Congress 
  from the State of Illinois.....................................   110
Hennig, Jens C., Vice President of Operations, General Aviation 
  Manufacturers Association, responses to questions for the 
  Record from Rep. Costello, a Representative in Congress from 
  the State of Illinois..........................................   133
Krakowski, Hank, Chief Operating Office, Air Traffic 
  Organization, Federal Aviation Administration:.................
      Responses to questions for the Record from Rep. Costello, a 
        Representative in Congress from the State of Illinois....   156
      Responses to questions for the Record from Rep. McMahon, a 
        Representative in Congress from the State of New York....   170
May, James C., President and CEO, Air Transport Association, 
  responses to questions for the Record from Rep. Costello, a 
  Representative in Congress from the State of Illinois..........   178
Planzer, Neil, Vice President-Strategy, Boeing Air Traffic 
  Management, on behalf of the Aerospace Industry Association, 
  responses to questions for the Record from Rep. Costello, a 
  Representative in Congress from the State of Illinois..........   190
Wright, Dale, Director of Safety and Technology, National Air 
  Traffic Controllers Association:...............................
      Excerpts from GAO Report (GAO-05-11).......................    43
      Response to question from Rep. Costello, a Representative 
        in Congress from the State of Illinois...................   223
      Response to question from Rep. McMahon, a Representative in 
        Congress from the State of New York......................   226

                        ADDITIONS TO THE RECORD

Aircraft Owners and Pilots Association, Lorraine Howerton, Vice 
  President of Legislative Affairs, letter.......................   229
[GRAPHIC] [TIFF OMITTED] T3122.001

[GRAPHIC] [TIFF OMITTED] T3122.002

[GRAPHIC] [TIFF OMITTED] T3122.003

[GRAPHIC] [TIFF OMITTED] T3122.004

[GRAPHIC] [TIFF OMITTED] T3122.005

[GRAPHIC] [TIFF OMITTED] T3122.006

[GRAPHIC] [TIFF OMITTED] T3122.007

[GRAPHIC] [TIFF OMITTED] T3122.008

[GRAPHIC] [TIFF OMITTED] T3122.009

[GRAPHIC] [TIFF OMITTED] T3122.010

[GRAPHIC] [TIFF OMITTED] T3122.011

[GRAPHIC] [TIFF OMITTED] T3122.012


 
 HEARING ON NEXTGEN: A REVIEW OF THE RTCA MID-TERM IMPLEMENTATION TASK 
                              FORCE REPORT

                              ----------                              


                      Wednesday, October 28, 2009,

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                     Washington, DC
    The Subcommittee met, pursuant to notice, at 2:00 p.m. in 
room 2167, Rayburn House Office Building, the Honorable Jerry 
F. Costello [Chairman of the Subcommittee] presiding.
    Present: Representatives Costello, Petri, Oberstar, 
Boccieri, Boozman, Boswell, Coble, Ehlers, Griffith, Graves, 
Guthrie, Lipinski, LoBiondo, Norton, Richardson, Schauer, and 
Schmidt.
    Mr. Costello. The Subcommittee will come to order.
    It's good to see my former Chairman, Chairman Roe here, who 
when I saw him sitting in the chair, I thought maybe there was 
a coup when I was gone.
    The Subcommittee will come to order. The Chair will ask 
that all Members, staff and everyone turn electronic devices 
off or on vibrate.
    The Subcommittee is meeting today to hear testimony 
regarding NextGen and to review the RTCA Mid-Term 
Implementation Task Force report. The Chair will give an 
opening statement, and then call on Mr. Petri, the Ranking 
Member, to give his remarks or his opening statement, and then 
call on other Members for brief remarks, and then go to our 
first panel of witnesses.
    I welcome everyone to today's hearing. This is the third 
hearing that we have held on NextGen, that Ranking Member Petri 
and I have held this year to focus on near-mid-term Next 
Generation implementation.
    Over the last two years, and as a result of many meetings, 
roundtable discussions, and hearings, it became very clear, I 
think, to Mr. Petri and I and others that, one, the 
stakeholders, users of NextGen were left out of both their 
input and the implementation or design of NextGen, and frankly 
the FAA had a very difficult time defining and describing what 
NextGen really looked like or what they intended to accomplish 
with NextGen.
    So it became clear to us that the FAA had to change course, 
and that they had to look both at short-term steps without 
losing sight of the long-term goals. And they have done exactly 
that. They have brought the stakeholders in, the users, and to 
listen to them and involve them in the process. And as a result 
of the persistence on the part of many people, some in this 
room today and others, as well as the persistence and the 
aggressive oversight of this Subcommittee, that is exactly what 
has happened. The RTCA was created, and we are, of course, 
examining their mid-term report today.
    First, I want to commend Hank Krakowski and Peggy Gilligan 
for commissioning the RTCA. They did exactly the right thing, 
what all of the stakeholders and what we wanted them to do, the 
RTCA, a private not-for-profit corporation that develops 
consensus-based recommendations to create a NextGen Mid-Term 
Implementation Task Force.
    Over 335 individuals from 141 organizations, which included 
users from the operating community such as the airlines, 
business aviation, general aviation and the military, as well 
as participation from the controllers, airports, avionics, 
manufacturers and others played an integral role in identifying 
the challenges and offering solutions for a way forward.
    The RTCA was instructed to work with the industry and 
prioritize which NextGen capabilities should be deployed first, 
and where they should be deployed to achieve the greatest 
benefits. The final report was delivered to the FAA in 
September.
    By bringing together representatives from all segments of 
the aviation industry, specific recommendations and action 
items were developed and a consensus on NextGen operational 
improvements for the near-to mid-term was forged. I commend the 
hard work and cooperation of all of the participants. I believe 
the RTCA Task Force report is a positive step forward and 
represents a significant breakthrough for the NextGen effort.
    Now, it is up to the FAA to determine how to modify its 
existing plans and programs in response to the Task Force 
recommendations. In the past, the FAA has struggled to define 
NextGen and to clearly articulate what benefits government and 
industry should reasonably expect from the system. The RTCA 
Task Force report provides, and I would quote Administrator 
Babbitt, ``clear, actionable and achievable recommendations 
that will help guide us forward.''
    Moreover, the RTCA Task Force report is distinguished by 
the support and, more importantly, the commitments that it has 
received from industry. Each of the Task Force's 
recommendations has operator commitments to make the critical 
investments to achieve benefits. I believe that the industry 
consensus embodied in this report represents an enormous 
opportunity for the Obama Administration to undertake NextGen 
implementation.
    While technologies will clearly play a major role in 
achieving the RTCA Task Force recommended capabilities, 
industry stakeholders have also stressed the importance of 
reforming the FAA culture, business practices, organizational 
structure and processes needed for successful implementation. I 
intend for this Subcommittee to provide consistent and rigorous 
oversight of NextGen near-term implementation, including many 
of the issues raised in the RTCA's report, while also staying 
focused on NextGen's long-term goals.
    For example, several different offices within the FAA, 
including the Aircraft Certification Service, the Flight 
Standards Service, and the Air Traffic Control Organization 
have responsibilities that relate to NextGen. However, the 
Government Accountability Office will testify today that some 
of the stakeholders have raised concerns that the FAA does not 
have adequate coordination across the agency to efficiently 
integrate NextGen-related infrastructure and processes.
    On this topic, the RTCA Task Force reports that the FAA 
must commit to delivering benefits by assigning appropriate 
responsibility, accountability and authority and funding within 
the agency. Chairman Oberstar and I both expressed concerns at 
our NextGen hearing last March about whether the FAA's current 
organizational structure adequately supports NextGen. I am 
still unclear whether there is a single point of 
responsibility, authority and accountability for NextGen 
activities, with the stature to leverage the interagency 
coordination that the NextGen will require. I look forward to 
hearing from Mr. Krakowski and others concerning that issue 
today.
    In addition, there are specific recommendations in the Task 
Force that the Subcommittee needs to examine more closely. For 
example, the report recommends streamlining the operational 
approval and certification processes for aircraft avionics. In 
addition, many of the witnesses also discussed in their 
testimony the importance of streamlining these processes. I am 
aware it takes several months for an operator to gain approval 
once the process is initiated, and it is complicated and 
expensive. Again, I would like to hear more from our witnesses 
concerning this issue.
    Further, the FAA may be confronted by a number of staffing 
and workforce challenges as it moves forward with the 
implementation of NextGen. In September of 2008, the National 
Academy of Public Administration issued a report that 
identified several areas, including software development, 
systems engineering, and contract administration, where the FAA 
currently lacks both the capacity and the capabilities to 
execute NextGen implementation. Congress and this Subcommittee 
stands ready to work with the FAA to ensure that the agency has 
the resources that it needs to meet its workforce challenges.
    Finally, I believe that post-Task Force engagement such as 
continued collaboration and joint decision-making among all 
members of the aviation community is a key component to ensure 
successful implementation of NextGen. I strongly encourage the 
FAA to continue a high level involvement and engagement with 
stakeholders, including operators and air traffic controllers, 
to ensure success.
    In addition, I agree that specific metrics to measure pre-
and post-implementation operational performance is important 
data for the FAA to track. This Subcommittee has already 
requested that the Department of Transportation Inspector 
General monitor FAA's process in responding to the Task Force 
recommendations and to determine if the FAA has a system in 
place to assess progress and measure benefits.
    Before I recognize Mr. Petri for his opening statement, I 
ask unanimous consent to allow two weeks for all Members to 
revise and extend their remarks, and to permit the submission 
of additional statements and materials by Members and 
witnesses.
    Without objection, the Ranking Member of the Subcommittee, 
Mr. Petri, is recognized.
    Mr. Petri. Mr. Chairman, thank you for providing leadership 
to have diligent oversight of the NextGen process. It is very 
important.
    When the RTCA NextGen Mid-Term Implementation Task Force 
was chartered in January, Task Force members were asked to 
achieve industry consensus on what steps must be taken over the 
next several years to deliver NextGen benefits to users. The 
Task Force, comprised of over 300 members, released its report 
and recommendations in early September.
    The Task Force's recommendations do not focus on which 
research and development activities will lay the groundwork for 
an end state NextGen architecture. Rather, the report's 
recommendations focus on activities that can maximize the 
potential benefits on existing aircraft avionics and airport 
technologies in the near term.
    Well, some have reacted by saying, well, that is not really 
NextGen. The report does mark an important milestone in the 
long history of air traffic control modernization. Without user 
buy-in, the FAA's NextGen efforts will fail. However, the 
direct involvement of stakeholders and financial officers in 
making these recommendations to FAA indicates a willingness on 
the part of industry to make the financial commitments needed 
to carry out the recommendations.
    Another valuable outcome of the Task Force is the clear 
call for collaboration across FAA lines of business. This will 
be critical to timely delivery of near-and long-term NextGen 
capabilities. For example, the delivery of key platforms such 
as ERAM, ADS-B, and SWIM are the necessary infrastructure for 
NextGen. But without procedures, standards and regulations, 
users will not be able to benefit from the technological 
improvements.
    Critical to maximizing benefits derived from technologies 
both old and new is the development of operational procedures 
overseen by the FAA's Office of Aviation Safety. I am pleased 
that Associate Administrator for Aviation Safety, Mrs. 
Gilligan, is participating today. I am interested in hearing 
how the agency plans to streamline the development and 
implementation of operational and environmental approval 
processes.
    The Task Force report has been characterized as a 
confidence-building exercise between users and the FAA. 
Specifically, the Task Force stated that if the FAA can 
maximize benefits of past avionics investments, users will be 
more confident in making future avionic investments. I am 
interested in hearing how the FAA will take advantage of this 
opportunity to work with the industry in delivering 
improvements.
    While ADS-B is regarded as the backbone of NextGen, it was 
not the focus of the Task Force recommendations. Unfortunately, 
there still is no clarity from the FAA on the business case for 
ADS-B equipage. The Task Force has been praised for its work in 
developing industry consensus and what is specifically needed 
in the near term to deliver NextGen. I am interested in hearing 
from both panels what the best process is for answering the 
challenging questions surrounding the shape and size of ADS-B.
    Finally, while it is important to set near-term goals, FAA 
must also be held accountable for delivering the long-term 
vision in a timely fashion. I am interested in hearing how the 
FAA will allocate its resources to strike the necessary balance 
between answering the users' demand for operational 
improvements in the near term, while maintaining efforts on the 
ground necessary to achieve the NextGen vision.
    The last thing we want to do is meet again on this topic 
five years from now, having invested billions of dollars, and 
find ourselves nowhere near to a modernized air traffic control 
system. I am sure that the user community shares my dread for a 
NextGen Groundhog Day.
    Once again, I thank the Chairman for calling this hearing, 
and look forward to the discussion.
    Mr. Costello. The Chair thanks the Ranking Member, and 
would ask, are there Members who have opening statements or 
comments?
    If not, the Chair will recognize our first panel: Ms. 
Margaret Jenny, who is the President of RTCA, Incorporated; Mr. 
Hank Krakowski, Chief Operating Officer, Air Traffic Control 
Organization with the FAA; Ms. Margaret Gilligan, who is the 
Associate Administrator for Aviation Safety with the FAA; the 
Honorable Calvin Scovel, III, who is the Inspector General with 
the U.S. Department of Transportation; Dr. Gerald Dillingham, 
who is the Director, Physical Infrastructure Issues, with the 
U.S. Government Accountability Office; and Dr. Agam Sinha, who 
is the Senior Vice President and General Manager at The MITRE 
Corporation, Center for Advanced Aviation Systems Development.
    Let me say before I call on Ms. Jenny for her testimony 
that, as I stated in my opening remarks, this Subcommittee 
urged the FAA to begin the process of including stakeholders 
when it was very obvious to us a few years ago that 
stakeholders were not being consulted. The very people who 
would operate and use the system were on the outside, as we saw 
it at that time, and needed to be included not only in order to 
make the system work, but also in order to take advantage of 
their expertise and the advice that they could lend to not only 
building NextGen, but in bringing the process forward.
    I am very pleased that Mr. Krakowski and Ms. Gilligan and 
you, Ms. Jenny, are here today on behalf of all of your Task 
Force members. I am very pleased with the work that you have 
done. I think it is a major breakthrough. It moves us forward 
and I want to commend you for the action that you have taken, 
and want you to know that we consider ourselves not only a 
Subcommittee that has responsibility for oversight for NextGen 
and the FAA, but also we want to be a partner in this process 
to make sure that it happens and happens in a reasonable period 
of time.
    So again, I commend those of you, all of you who were 
involved in this process. It is something that we look forward 
to seeing happen, and it has happened, and now what we need to 
do is, it falls on the FAA to figure out how they are going to 
look at their structure, their policies, to blend in the 
recommendations that have been made by the Task Force.
    With that, we have a five-minute rule normally with our 
witnesses. We would ask you to summarize your testimony in five 
minutes, which would allow time for questions, as we have a 
second panel that will follow you. And we want you to know that 
your full statement will be entered into the record.
    With that, the Chair now recognizes Ms. Jenny.

  TESTIMONY OF MARGARET T. JENNY, PRESIDENT, RTCA, INC., HANK 
 KRAKOWSKI, CHIEF OPERATING OFFICE, AIR TRAFFIC ORGANIZATION, 
 FEDERAL AVIATION ADMINISTRATION; MARGARET GILLIGAN, ASSOCIATE 
      ADMINISTRATOR FOR AVIATION SAFETY, FEDERAL AVIATION 
ADMINISTRATION; THE HONORABLE CALVIN L. SCOVEL, III, INSPECTOR 
    GENERAL, U.S. DEPARTMENT OF TRANSPORTATION; DR. GERALD 
  DILLINGHAM, DIRECTOR, PHYSICAL INFRASTRUCTURE ISSUES, U.S. 
GOVERNMENT ACCOUNTABILITY OFFICE; AND DR. AGAM N. SINHA, SENIOR 
  VICE PRESIDENT AND GENERAL MANAGER, THE MITRE CORPORATION, 
        CENTER FOR ADVANCED AVIATION SYSTEM DEVELOPMENT

    Ms. Jenny. Thank you. Good afternoon, Chairman Costello, 
Ranking Member Petri and Members of the Subcommittee. Thank you 
for inviting me to participate in today's hearing on NextGen.
    A few words about RTCA might help set the stage for my 
remarks. RTCA is a private, not-for-profit corporation that is 
utilized by the FAA as a Federal advisory committee, providing 
a venue for stakeholders to forge consensus on aviation-related 
issues. RTCA provides two categories of recommendations: first, 
policy and investment priorities to facilitate the 
implementation of national airspace system improvements; and 
second, performance standards used by the FAA as a major input 
for certification of avionics.
    My testimony today will describe the RTCA Mid-Term 
Implementation Task Force Initiative and the resulting 
recommendations.
    The Task Force was established in February in response to a 
request from Hank Krakowski and Peggy Gilligan. Over 335 
individuals from 141 different organizations participated in 
the Task Force, bringing technical, operational and, for the 
first time, financial expertise. Forging a consensus was a 
challenge, but at the end of the day, the shared desire to 
improve the Nation's air transportation system prevailed. On 
September 9, RTCA delivered a consensus-based set of 
recommendations to the FAA.
    First, the Task Force stressed the importance of 
implementing operational capabilities versus technologies, and 
deriving benefits from existing equipage. This approach will 
help relieve congestion in today's system, but success will 
also increase the community's confidence in the FAA's ability 
to implement NextGen.
    Second, the Task Force recommended an airport-centric 
approach to NextGen, delivering capabilities at key airports 
and large metropolitan areas where the problems are most likely 
to ripple through the Country, causing unnecessary flight 
delays, misconnections, and cancellations. Many capabilities 
will require deploying an integrated suite of capabilities. 
This will require a new way of doing business.
    Third, for each capability recommended, the report 
identified the location, as well as the list of operators 
committed to making the investments.
    The Task Force made recommendations in seven key areas. 
First, improve the airport surface traffic situational 
awareness and data-sharing for enhanced safety and reduced 
delays. Establish a single point of accountability within the 
FAA to oversee the implementation of operational capabilities 
for the airports serviced.
    Second, increase throughput at airports and closely spaced 
parallels converging at intersecting runways.
    Third, increase metroplex capacity and efficiency by de-
conflecting the traffic to and from the airports in the 
metropolitan area.
    Fourth, increase the cruise efficiency through enhanced use 
of special activity airspace, increased use of aircraft 
metering and spacing at the bottlenecks, and increase the use 
of flexible RNAV routing.
    Fifth, enhance access to low-altitude non-radar airspace 
for general aviation traffic, and increase the availability of 
GPS approaches to more general aviation airports.
    Sixth, deploy air-ground data digital data communication 
applications to decrease gate departure delays and to enhance 
efficiency and safety of airborne traffic, especially when re-
routing of multiple aircraft around weather is necessary.
    And seventh, improve the overall efficiency by enhancing 
the collaborative decision-making between the FAA and the 
users' flight operations centers.
    The Task Force also made four critical overarching 
recommendations. The first is to achieve the existing three-and 
five-mile separation by eliminating buffers now applied. Second 
is to streamline operations approval process. Third is to 
incentivize equipage. Fourth is to utilize the RTCA mechanism, 
as well as joint government-industry implementation teams to 
facilitate the collaborative planning and implementation and 
tracking of NextGen.
    The report makes another critical point. Closing the 
business case for NextGen investments requires delivering 
benefits within a requisite payback period. Many of the NextGen 
investments have high costs, long payback period, and low 
confidence of payback, due in part on the dependence of outside 
forces such as the FAA.
    One way to close the business case for such investments is 
to achieve a faster return. For example, the Task Force 
analysis showed that while no individual DataComm capability 
would close the business case, when five capabilities were 
delivered for one investment, the business case closed for the 
airlines. The Task Force documented all known challenges to 
delivery and the benefits as well.
    Some have asked whether the FAA can afford to implement the 
Task Force recommendations, as well as the NextGen vision. The 
answer is that we cannot afford not to. The recommendations 
solve current problems, while laying the necessary groundwork 
for the longer term NextGen. The recommendations are in effect 
a risk mitigation program for NextGen.
    Thank you for the opportunity to testify on this important 
topic. I would be happy to answer any of your questions.
    Mr. Costello. The Chair thanks you, Ms. Jenny. And again, 
we thank you for your work on the Task Force.
    The Chair now recognizes Mr. Krakowski.
    Mr. Krakowski. Thank you, Chairman Costello, Ranking Member 
Petri, Members of the Subcommittee. I will be making the 
opening statement for FAA today.
    I would like to start out by also thanking Margaret Jenny 
and Captain Steve Dixon from Delta Airlines, and the Task Force 
leads for leading what we think is a definitive jump start to 
actually implementing NextGen.
    The two major principles of the Task Force were: prioritize 
initiatives that have a near-term effect; and continued 
cooperation and involvement of the industry in the execution 
and the evolution of the plans.
    To prioritize the initiatives, we are reviewing the NextGen 
implementation plan, along with the Task Force recommendations 
in the guise of the Operational Evolution Partnership, which 
has now become the NextGen Management Board. It is the OEP 
which brought us three runways on time and under budget, as 
well as other improvements to the NAS. It also helped us 
achieve being removed from the GAO high risk list.
    To do the needed follow-up, the FAA is committing to work 
with our stakeholders through the ATMAC, which is a sub-group 
of the RTCA, and its work groups. The ATMAC's work will 
complement the work of the NextGen Management Board, as I have 
described, as well as the Review Board which resides under it 
for detailed work. And through that process, we will bring all 
the relevant issues together to make the right strategic 
decisions.
    It is important to know that the NextGen Management Board 
is chaired by the Deputy Administrator of the FAA, and it is 
Randy Babbitt's intention to make the Deputy Administrator the 
central point of focus for the over arching implementation 
issues through this process at FAA.
    In the meantime, we are pleased that the Task Force did 
reaffirm that we are on the right track. Airport surface 
improvements are a good place to start. It is where much of the 
congestion does exist. We have been deploying ASDE-X, as well 
as other technologies, on the surface. Now, we have an 
opportunity to use it more effectively.
    The metroplex. Instead of looking at this from singular 
airport perspectives, it is important to look at it as a system 
of airports and integrated airspace, so as we make decisions 
around improving the metroplex areas, you do have to consider 
all of the different aspects and interdependencies of what we 
are trying to achieve.
    Access to the NAS. This means approaches. This means our 
NAS procedures, places in particular for general aviation 
aircraft to gain access, which were prohibited by the lack of 
infrastructure in avionics in the past.
    Incentivizing equipage. This is probably going to be one of 
the more interesting conversations. We have to sort out what 
``Best-Equipped, Best-Served'' means; and how we possibly fund 
incentive of equipage. There are a lot of different 
conversations going on here in Washington about how to do that.
    And lastly, streamlining. Streamlining our process within 
the ATO, streamlining the processes within AVS and coming 
together to create a single performance-based navigation point 
of focus and office within the FAA is our intention.
    As we move forward with examining the Task Force 
recommendations, we welcome Congress' continued interest, and 
commit to moving NextGen forward to heighten safety and 
maximize efficiency throughout the national airspace system, 
and we intend to see this commitment through.
    Chairman Costello, Congressman Petri, and Members of the 
Subcommittee, this concludes our prepared remarks, and we look 
forward to answering any questions.
    Mr. Costello. The Chair thanks you, Mr. Krakowski.
    And now we will recognize Inspector General Scovel.
    Mr. Scovel. Mr. Chairman, Ranking Member Petri, Members of 
the Subcommittee, thank you for inviting me here today to 
discuss the status of NextGen's implementation.
    When fully implemented, the satellite-based system is 
expected to improve air traffic management and yield 
significant economic and environmental benefits. Yet our body 
of work on NextGen has shown that these benefits will remain 
elusive unless FAA addresses a number of operational and 
management issues now and into the future.
    Last month, an RTCA Task Force reported its findings on 
NextGen and made a number of recommendations on what FAA needs 
to achieve in the near-and mid-term, actions consistent with 
those we have recommended over the past five years. While FAA 
has concurred with our past recommendations and endorsed 
RTCA's, FAA needs to take action now to transition from 
planning to implementation.
    Today, I will focus on five overarching near-and mid-term 
capabilities that we and the RTCA have determined FAA must 
address if it hopes to implement NextGen successfully. The 
first capability concerns the capacity of airspace in 
metropolitan areas with multiple airports, such as New York, 
Chicago, and Southern California.
    Of particular concern is FAA's implementation of RNAV/RNP 
procedures. As we have previously reported, FAA needs to track 
data on the use of RNP procedures to determine which routes are 
not being used and why. We found that air carriers' limited use 
of new RNAV/RNP procedures is due largely to FAA's practice of 
overlaying RNP routes over existing ones, out of date traffic 
policies, and insufficient pilot and controller training. At 
Atlanta's Hartsfield-Jackson Airport alone, controllers have 
yet to use any of the 10 RNP procedures FAA implemented two and 
a half years ago.
    The Task Force also emphasizes the need to shift from the 
quantity of RNAF/RNP procedures implemented to the quality of 
the routes.
    The second capability concerns runway access. A key 
transition issue for NextGen is determining whether throughput 
at already congested airports can be increased. This is 
particularly important for airports with complex runway 
configurations, such as converging or closely spaced runways. 
Updated safety assessments are also needed to ensure 
unanticipated hazards are not introduced, particularly during 
periods of low visibility.
    FAA must also address longstanding concerns with terminal 
modernization, the equipment controllers rely on to manage 
aircraft in the vicinity of airports. The Task Force parallels 
our work on the need to address exactly how various 
technologies and procedures can unlock congested airports and 
improve arrival rates under all weather conditions.
    The third and fourth capabilities concern high-altitude 
cruise and access to the national airspace system. To improve 
high-altitude flights and service at smaller airports, FAA 
needs to increase the availability of real-time data on the 
status of airspace use. Our concern about the impact of mixed 
equipage on NextGen is relevant here. Understanding and 
mitigating the impacts of air carriers' different capabilities 
and procedures are important for several mid-term efforts, 
including RNAV/RNP, datalink communications for controllers and 
pilots, and satellite-based surveillance systems for tracking 
aircraft positions.
    In addition to these four capabilities, RTCA also calls for 
a major reevaluation of airport surface operations to enhance 
use of taxiways, gates and airport parking areas. These needed 
capabilities and RTCA's recommendations highlight a number of 
NextGen policy questions.
    For example, RTCA discussed several sources of funding to 
implement its recommendations, such as providing financial 
incentives, possibly in the form of low interest loans, direct 
subsidies for equipment, or income tax credits. Whether such 
incentives should be used is a policy decision for Congress. If 
incentives are used, they must be properly designed and timed 
to achieve their objectives at minimal cost to taxpayers.
    A related policy concern focuses on the proposed best-
equipped/best-served concept as a way to advance NextGen. The 
concept, first mentioned in FAA's January 2009 NextGen 
implementation plan, gives preferential treatment to airspace 
users equipped with new systems. Historically, however, FAA's 
policy for providing air traffic control services has been 
first come, first served. A best-equipped/best-served policy 
would, therefore, represent a significant change in how traffic 
is managed. Key concerns include ensuring equity among users in 
implementing the policy at specific locations.
    To set realistic expectations for NextGen, FAA needs to 
take several actions now. First, implementing RTCA's 
recommendations will require FAA to adjust budgets and plans. 
Accordingly, FAA must develop plans to initiate action and 
establish a five-year funding profile for the NextGen mid-term.
    Second, FAA must develop metrics for assessing progress, 
measuring benefits, and identifying problems in order to put 
timely corrective actions in place.
    Third, FAA must determine how a best-equipped/best-served 
policy could be implemented.
    And finally, FAA must develop and implement a strategy for 
linking near-and mid-term efforts with long-term plans for 
NextGen's major transformational programs.
    Mr. Chairman, this concludes my statement. I would be happy 
to answer any questions you or Members of the Subcommittee may 
have.
    Mr. Costello. The Chair thanks you, Inspector General 
Scovel, and now recognizes Dr. Dillingham.
    Mr. Dillingham. Thank you, Mr. Chairman, Ranking Member 
Petri and Members of the Subcommittee.
    The RTCA Task Force report and its recommendations can be 
viewed as a blueprint for the transition from the current air 
traffic control system to NextGen. This transition phase is 
often referred to as NowGen, as distinguished from the NextGen 
Program.
    My testimony today highlights some of the challenges that 
we believe FAA needs to consider as it develops its response to 
the Task Force recommendations.
    These challenges fall into three areas: first, allocating 
its resources for developing and certifying RNAV and RNP 
procedures and addressing the related environmental issues; 
second, managing FAA's organizational culture and business 
practices to support a new way of operating; and third, 
deciding on cost-effective options for encouraging operators to 
equip their aircraft for new systems capabilities.
    The first group of challenges involves allocating resources 
to prioritize and expedite the development of procedures that 
allow more direct flight paths than existing RNAV and RNP 
procedures, and redesigning airspace in congested metropolitan 
areas.
    Our work suggests that FAA will have to prioritize its 
development of RNAV and RNP procedures because at the current 
pace, it will take decades to complete the thousands of 
procedures targeted for development.
    This challenge also includes finding ways to expedite 
environmental review processes and proactively addressing the 
environmental concerns of nearby communities. Both of these 
efforts have oftentimes contributed to very significant delays 
in implementing new procedures and redesigning airspace.
    The second group of challenges involves adjusting FAA's 
organizational culture and business practices. Traditionally, 
FAA's culture and business practices have supported the 
acquisition of individual air traffic control systems. 
Implementing NowGen will require FAA to increase its emphasis 
on integration, coordination and measurable outcomes. 
Specifically, FAA will have to work with a greater number and 
variety of external stakeholders, as well as across multiple 
internal lines of business, and may have to re-prioritize some 
of its current NextGen implementation plans and programs.
    At the same time, FAA must ensure that its near-term plans 
align with its longer term NextGen vision. Additionally, with 
NowGen, FAA must ensure that standards, procedures, training 
protocols, and other necessary requirements to operate in the 
NAS are developed and certified in a sequence that supports the 
timely implementation of capabilities. Furthermore, 
streamlining these processes is critical.
    The last group of challenges involves ensuring that 
operators are equipped for NowGen and NextGen. Although the 
Task Force assumed that for the most part, Federal funds would 
not be required to implement its recommendations, our work has 
shown that for a variety of reasons, from establishing the 
credibility of FAA's long-term commitment, to the financial 
condition of the industry, the Federal Government may be asked 
to provide financial assistance incentives for NextGen aircraft 
equipage. If Federal resources are used, we believe that it is 
important that key considerations include a focus on what would 
be in the national interest, rather than the best interest of 
any one or more stakeholder groups, and that the Federal 
assistance will not displace private investment.
    Mr. Chairman, we agree with the Task Force conclusions that 
its report should be seen as a beginning, and not an end. I 
would add that successful next steps for NowGen will require 
the same kind of cooperation, collaboration and transparency 
among stakeholders that was shown in the work of the RTCA Task 
Force, as well as the continued oversight that has been 
provided by this Subcommittee.
    Thank you, Mr. Chairman.
    Mr. Costello. Thank you, Dr. Dillingham.
    The Chair now recognizes Dr. Sinha.
    Mr. Sinha. Good afternoon, Chairman Costello, Ranking 
Member Petri, and Members of the Subcommittee. Thank you for 
inviting me to participate in today's hearing on NextGen: A 
Review of the RTCA Mid-Term Implementation Task Force Report, 
commonly known as Task Force 5.
    My testimony today will address the RTCA Task Force 5 
recommendations, their feasibility and challenges, and post-
task force priorities.
    It is important to begin by acknowledging that the way the 
Task Force was conducted constitutes a transformational process 
for how government and industry should forge consensus. I would 
like to highlight three unique aspects that led to the success 
of this activity and that should be viewed as best practices 
for future collaborative efforts.
    First, the recommendations and conclusions of Task Force 5 
are rooted in data and analysis that was collected and made 
available to all participants. This transparent data-driven 
approach provides traceability for the decision-making process 
and allows new information to be incorporated as it becomes 
available.
    Second, participation by stakeholders finance 
representatives is unprecedented and was a key success factor 
for this Task Force. In the past, representation from 
stakeholders' operational and technical personnel left out key 
considerations that are required to successfully drive the 
users' investment decision-making.
    Finally, commitments by operators were focused on 
implementation at specific locations based on expected 
benefits. Capabilities were identified that provide benefits 
for each operator group, including general aviation, business 
aviation, commercial and military.
    The Task Force did a commendable job in reaching consensus 
amongst the diverse set of participants. However, there is much 
work to yet to be done to successfully achieve the operational 
improvements and associated benefits.
    Tier one recommendations for the near term are based on 
mature technologies and procedures already under development 
and are targeted to benefit all operator groups. One example is 
optimizing RNAV and RNP procedures. The operational capability 
description includes selected, high-benefit locations and 
recommends instituting joint government-industry ``tiger 
teams'' to focus on the quality of the RNAV procedures as they 
are implemented, and to identify and resolve issues early in 
the implementation process.
    Some capabilities will require FAA to accelerate or 
redefine the current plans. An example is expediting 
implementation of data communications. The recommendation calls 
for deployment of the initial data link capability to deliver 
revised departure clearances and en-route clearances to the 
pilot, thereby providing early benefits.
    Some tier one near-and mid-term capabilities, though well 
defined, still require further work in areas including safety, 
certification, human factors and potentially some policy 
changes. For example, expanded parallel runway operations need 
additional human-in-the-loop simulations and blunder analysis 
to support enhancements to closely spaced parallel runway 
operations.
    Another key challenge that was identified across many of 
the proposed operational changes was the need to accelerate 
processes related to avionics certification and operational 
approval.
    The tier two and three recommendations identified by the 
Task Force were deemed to have lower benefits and/or higher 
risks. The community should continue its R&D activities to 
better define and integrate evolutionary capabilities to build 
on those in tier one.
    Integrated human-in-the-loop experiments, fast-time 
modelings and simulation, data analysis capabilities, and 
operational demonstrations and evaluations at selected sites 
will provide necessary verification and validation or needed 
modifications of concepts, technologies and procedures.
    Availability and use of these resources will be a critical 
factor to support further refinement of the recommendations in 
all tiers, and to ensure their successful implementation.
    Now, looking to post-Task Force engagement, the complexity 
and challenges of moving forward will require continued 
collaboration and joint decision-making among all members of 
the aviation community. Specific metrics should be agreed upon 
to measure pre-and post-implementation operational performance, 
and determine if expected benefits are materializing.
    Stakeholders will need to collaborate to address complex 
policy issues related to airspace design, congested airspace 
access, data security and environmental considerations. 
Further, definition of best-equipped/best-served policies and 
procedures in a mixed equipage environment will need to be 
addressed as each operational capability is agreed to and 
corresponding locations are prioritized.
    The Task Force report calls for responsibility, 
accountability and authority and funding stability as necessary 
components of the stakeholders' commitment. The FAA should 
capitalize and build on past examples of successful 
stakeholders' engagement and project execution.
    For example, both the Free Flight Program and Operational 
Evolution Plan have demonstrated the ability to deliver on 
promised benefits. Both FAA and the operators need to engage 
their workforces to develop procedures and training for pilots, 
controllers, system implementors, and maintainers. This will 
ensure that they will be ready at the same time and place, so 
that available avionics can be used as intended to deliver 
improved operations and benefits.
    Finally, although key NextGen foundational programs such as 
ERAM and ADS-B are not included in the Task Force 
recommendations, progress and assessment of these programs must 
proceed and also be transparent to all the stakeholders.
    Mr. Chairman, this concludes my testimony. I would be happy 
to answer any questions the Committee may have.
    Mr. Costello. The Chair thanks you, Dr. Sinha.
    Ms. Jenny, in your testimony you talk about the importance 
of a single point of accountability within the FAA. You know of 
the FAA's plans to name a yet to be named Deputy Administrator 
to put that person in charge of NextGen. I am not sure how that 
relationship between the Deputy Administrator and JPDO will 
work, but if you will elaborate a little bit about what the 
RTCA found or addressed in their concerns about single point of 
accountability and why that is necessary.
    Ms. Jenny. Yes, I would be happy to, speaking for the Task 
Force.
    It should be noted that the Task Force limited its 
recommendations to the FAA on what needed to be implemented 
between now and 2018, and not how. Having said that, the Task 
Force participants felt fairly strongly because once we stepped 
back and looked at the set of capabilities that we recommended, 
so many of them require an integrated suite of capabilities to 
be deployed at specific locations, as opposed to doing things, 
investments in infrastructure across the Country, that it was 
felt that there needed to be some higher level accountability 
that would require, that would force that kind of integration 
across the FAA.
    So I think that most of the Task Force participants would 
be pleased for that to be something that would be a 
responsibility of the Deputy.
    Mr. Costello. What was the Task Force recommendation for 
follow-up after the report now has been delivered to the FAA? 
Did you make any recommendations as to what follow-up should be 
done between the Task Force and the FAA?
    Ms. Jenny. Yes, we did, Mr. Chairman. There were three 
parts to that recommendation. The first was to establish the 
group of leadership of the Task Force. That is about 18 or 20 
people who led the different sub-groups of the Task Force, and 
have key understanding of its recommendations. The idea was 
that that sub-group would be stood up as an RTCA sub-group 
under our advisory committee, and would work collaboratively 
with the FAA to provide more input into what the 
recommendations meant, and to understand from the FAA how they 
are integrating them into their plan.
    At the end of that would be new NextGen implementation 
plan, and that group would probably stand down, and we would 
move into a use of the RTCA sub-groups under ATMAC to monitor 
the implementation of the recommendations and the 
implementation of NextGen, both the milestones, how they are 
being achieved, and how the performance is improving. We are 
agreeing to stand up specifically the finance sub-group that 
will have all the finance people from carriers to stay as a 
standing group to help us with the kinds of things that Dr. 
Sinha referred to in terms of updating all that data that we 
have supporting the costs and the benefits needs more work.
    And the third part was to establish government and industry 
joint implementation teams for those things that we agree we 
are going to implement at specific locations, and have all the 
stakeholders working together to synchronize their investments 
and their activities.
    Mr. Costello. Thank you.
    Mr. Krakowski, again I mentioned we commend you and the FAA 
for doing what we and others have asked you to do in seeking 
the input of the stakeholders. Now that you have their input 
through the RTCA Task Force, let me ask you. There were 29 
recommendations, if my memory serves me correctly, that the 
Task Force specifically made. How many of those 29 
recommendations do you agree with and intend to move forward 
with?
    Mr. Krakowski. Well, they are kind of bucketed in about 
seven different buckets. The key issue in my mind is, as was 
stated earlier, this is just a beginning because we now need to 
sort out with the RTCA and the Task Force and the members what 
the real priority needs to be, and in some cases, what are we 
going to stop doing or delay so we can get to a more near-term 
focus on some of the capabilities.
    Tomorrow will be the first ATMAC meeting that we will have 
since the recommendations came out. And tomorrow, in our view, 
starts that very process. Now that FAA has had six weeks to 
take a look at the recommendations, reference them against what 
we are currently doing with the NextGen implementation plan and 
other activities going on, and identify what are the gaps.
    And then tomorrow, we expect to enter into a discussion on 
how we are going to work through reprioritizing it so we can 
satisfy our commitment to make the Task Force recommendations 
become real. And that is going to, I think, be an iterative 
process for a few months here, leading up to a NextGen 
implementation near-term plan to be published in January, which 
is what we always we do, with the intention of having as much 
of this defined in that document as we can.
    Mr. Costello. And it is my experience, at least in the past 
in dealing with the FAA, as well as other agencies, that if we 
do not set goals and time lines, that things can drag on 
forever. So my question to you is, is there a time line that 
you have within the agency to analyze these recommendations, as 
you are beginning to do now with the Task Force, and you have 
been looking at them for the last six weeks internally. Is 
there a time line where you are going to pull the trigger and 
say, by this date, we are going not only to identify the 
priorities, but by a date, we are going to make a decision as 
to which we are going to accept and act on, and which we 
disagree with?
    Mr. Krakowski. We don't have any solid time lines quite 
yet. I think we are, quite frankly, a little early in the 
process. But the intention is to have as much of this framed 
out for that January NextGen Implementation Plan publication, 
so from that point we can actually then be talking about 
realistic time lines. Because what is different about this is 
this isn't just about FAA making commitments to make this 
happen. The industry has to agree to it with some specificity. 
That is going to take some work.
    Mr. Costello. And the industry will say, I am sure, in the 
second panel that their willingness to commit financially and 
otherwise will depend on the action taken by the FAA and the 
benefits that you can demonstrate that they will receive. So I 
understand where you are coming from. I would encourage you to 
try and look at some time lines and also to continue to 
communicate on a regular basis with Ms. Jenny.
    With that, the Chair would recognize the Ranking Member, 
Mr. Petri.
    Mr. Petri. Thank you very much, Mr. Chairman.
    As I indicated in my opening remarks, this is another in a 
several years series of hearings we have had, and I just wanted 
to say that I am actually kind of encouraged because we are 
seeing the problem being broken down and brought more 
immediate, and trying to get different players to focus on 
solutions, and getting things moving forward, rather than some 
huge project that is not going to really be implemented, when 
suddenly in 25 years we will have this wonderful new world.
    I mean, that can be a long-term framework, but within that 
framework, how do we get from here to there? And how can we 
start collaborating? So I am very, very encouraged by the Task 
Force report and your response to it, and look forward to the 
next panel's discussion about how to work the collaboration so 
we don't get into a chicken and egg problem, but can try to 
figure out how to actually move forward profitably for the 
airlines and efficiently and safely for the traveling public, 
because there are a lot of benefits for our Country and the 
public in this process.
    One thing, if you could, both Ms. Jenny and Mr. Krakowski, 
discuss a little bit the airport-centric approach, how you 
envisage that reducing delays in the national airport system. 
And I think for Mr. Krakowski, how you would expedite the 
implementation of RNP/RNAV routes for operators that are so 
equipped? And is there room for streamlining the procedure 
approval for that process, both in safety certification and in 
environmental approval?
    We know the political side of environmental approvals 
particularly, and it is a no-win situation, but we need to move 
forward and airplanes are quieter than they were. And so the 
real-world consequences of doing this are probably a little 
less than they might have been some time ago. Could each of you 
comment?
    Ms. Jenny. Thank you. One of the things that we did in the 
Task Force was we started with a large, a fairly longer list of 
operational capabilities. And then we looked at each one and 
defined its benefits and its costs, and we brought in as many 
studies as we can find. And then we looked at ranking them.
    And when we did that, it became very clear that the highest 
benefit, the biggest bang for the buck we would get out of all 
of the recommendations were those things revolving around large 
metropolitan areas with many airports. So we had actual data to 
look at.
    And it is pretty clear when you look at the data that if 
you can solve the delay problem in the New York area or the 
Chicago area, those delays ripple through the whole system. So 
if you can solve those, you solve a large percentage of the 
problems in the whole transportation system.
    So those sort of naturally made their way to the top 
because of the process that we used and the process we hope to 
continue to use moving forward.
    Mr. Krakowski. Clearly, we concur with what Ms. Jenny said.
    Relative to the streamlining of RNAV and RNP procedures, 
there is a lot of opportunity here. We are taking certain 
specific steps. For example, within ATO, there are three 
organizations under two different Vice Presidents who have been 
processing RNAV/RNP procedures from the air traffic point of 
view. We don't think that that is a successful model for 
implementing the Task Force recommendations, so we are 
consolidating that into a single performance-based navigation 
office under our Senior Vice President for Operations, Rick 
Day. And it also links up with service areas where a lot of the 
customers have direct contact with our people who are doing 
these procedures and creating them in their regions and at 
their local airports. So we think that will go a long way in 
helping streamline our ability to deliver procedures that are 
approved.
    Now, Ms. Gilligan has the other side of the house with the 
approvals from a flight standards point of view.
    Ms. Gilligan. Yes, sir. And we agree that we can streamline 
the approval process for the procedures. I think we, and 
industry, had a lot to learn as we started down this road 
because obviously we want to implement these procedures, but we 
don't want to introduce any unintended safety hazard or safety 
consequence.
    We have learned a lot. We have worked with the 
manufacturers and with the operators to better understand who 
needs to bring what data to the table, so that we can 
streamline the process. The Task Force recommends that we 
establish a standard process. Up until now, individual 
applicants have come in and they have wanted to do what may 
have worked well for them in their individual airline or at 
their individual operation. We are going to standardize that, 
and that will help to reduce the time as well.
    It took a long time at the start, but I think each of the 
new applicants would agree that it has gotten better and easier 
as we have gone along, and we are going to focus on enhancing 
that even more.
    Mr. Costello. The Chair now recognizes the distinguished 
Chairman of the full Committee, Chairman Oberstar.
    Mr. Oberstar. Thank you very much, Mr. Chairman. And thank 
you for staying close on the hide of all these participants in 
NextGen. You have been doing a terrific job, and I thank Mr. 
Petri for partnering in this initiative.
    I have a good deal more confidence about the future of 
modernization of the air traffic control system with the steps 
that have been taken.
    Mr. Scovel and Dr. Dillingham, I have one question. Based 
on your review of FAA's management of NextGen, and of the 
numerous technologies--airport operations, runway access, 
metroplex airspace, high altitude cruise, continuous glide-path 
in and so on--give us your evaluation of FAA's ability to 
manage multi-billion dollar contracts.
    Mr. Dillingham. I will take a shot at it first.
    Mr. Oberstar. You have been there before, Dr. Dillingham.
    Mr. Dillingham. Yes, Mr. Chairman.
    Mr. Oberstar. With us, together.
    Mr. Dillingham. Yes, yes. In fact, we have been monitoring 
FAA for 15 years with regard to air traffic control 
modernization. I haven't been here the whole 15 years, but a 
lot of it.
    FAA has definitely shown progress in its ability to monitor 
those large contracts. Part of that, we attribute to the 
Congress mandating the stand-up of the ATO and subsequently the 
business practices that, and operational practices that the ATO 
brought into being. As the COO just talked about earlier, we 
did remove them from our high-risk list after 12 years because 
they were able to do that.
    What we are saying now is that should provide a foundation 
for what needs to be done with NowGen and NextGen, though they 
will have to shift from sort of concentrating on acquiring one 
system and deploying it nationwide, to this more integrated, 
cooperative, regional kind of orientation.
    But we are definitely guardedly optimistic that FAA can 
make this happen, but it is indeed a complicated undertaking.
    Mr. Oberstar. You remember, and this was before General 
Scovel's tenure, you remember the period in which FAA was mired 
in the advanced automation system, and the contract for that 
was supposed to be $500 million, and went up to well over $1 
billion in a day when $1 billion was a lot of money.
    [Laughter.]
    Mr. Oberstar. And you remember my calling the Vice 
President of IBM in this hearing room and telling him, I am 
going to nail your shoes to the floor. He said, why? I said, 
because you keep moving around. You can't stay with one system 
until you have it completed. And the other thing is, you need 
to stay in one place and manage more than one system at a time.
    Do you think they are able to do that?
    Mr. Dillingham. Yes, sir. I think, you know, we see things 
like when that system, when the IBM system was being developed, 
FAA used the concept of what we used to call the ``big bang'' 
theory. Let's, you know, all of this at once. And they since 
have moved to build a little, test a little. And that has 
proven to be a useful way to approach things.
    So you learn as you go, and I think that, you know, they 
have a good chance. It is going to take that collaboration and 
cooperation that we saw with the RTCA Task Force, with industry 
being a part of it. But also it is going to require that this 
Subcommittee and the full Committee maintain that oversight 
that they have been doing for the last two decades.
    Mr. Oberstar. Yes, a good deal of all those things you 
mentioned happened because of this Committee's, Subcommittee's 
oversight under various management. But you remember when 
Administrator Hinson, after we had quite some consultations, 
and with Linda Daschle, who was Acting Administrator, brought 
in Navy auditors to review FAA's contract management, and found 
there were just--it was deplorable, just deplorable. And Navy 
made a number of very pertinent and insightful recommendations, 
which then we took and translated into legislative language, 
and Mr. Hinson implemented.
    Well, FAA has been able to do a number of major projects, 
but I still, with a question also: Is there an arm's length 
relationship with the contractors?
    Mr. Scovel?
    Mr. Scovel. Tall question, sir. In the context of NextGen, 
we will be looking at that very carefully when we look at how 
FAA undertakes its implementation of the RTCA's Task Force.
    Mr. Oberstar. Remember Coast Guard, remember the IBM Days. 
You couldn't tell where FAA left off and IBM began and vice 
versa. Now, there is a contractual relationship. There has to 
be inclusiveness within FAA, with bringing the controllers in 
at the early design and engineering stages, and FAA can't be, 
as the Coast Guard was doing, telling contractors: you do it 
and certify to us that you are doing a good job.
    Mr. Scovel. Yes, sir. I understand your cautionary comments 
along those lines, and I well recall in the context of aviation 
safety hearings that we have had in this hearing room where I 
have been privileged to appear before you, sir. And one of the 
lessons for all of us was the, in your words, sir, a cozy 
relationship between FAA and carriers.
    Back to your earlier question, sir, about multi-billion 
dollar contracts. We can point to some successes on FAA's part. 
ERAM is certainly one of them. My staff's work has led us to 
conclude that stable requirements are an absolute key if FAA is 
to successfully carry off a contract of that nature.
    On the other hand, you referred to WAAS, sir, and we are 
all familiar with STARS as well. As we look at NextGen 
implementation for the mid-term, terminal modernization, with 
its history of being virtually a trail of tears, has the 
possibility of being almost a show-stopper for anything that 
can be accomplished in the near-to mid-term.
    Mr. Oberstar. Let's all keep in mind, and all of us on this 
Committee do, I know, it is not the airlines. It is the air 
travelers who are paying for this system through their ticket 
tax. It is that excise tax that goes into the AIP account and 
to the F&E account and 80 percent of the operations account. 
And so we are very directly responsible to the air travelers 
for the investment they are making, and they are counting on us 
to make sure that this works.
    And they are also counting on us not to over-promise and 
under-deliver. And I need you two watch-dogs to stay on top of 
it, as we will, this Committee as well, I assure you.
    Thank you very much, Mr. Chairman.
    Mr. Costello. The Chair thanks you, Chairman Oberstar.
    And let me mention to General Scovel, we are aware of the 
aggressive review that you are doing with ADS-B, and we take 
our responsibility as oversight of the agency and others 
involved in the system, and we appreciate the work that you are 
doing with ADS-B and the work that you do in general.
    The Chair now recognizes the gentleman from North Carolina, 
Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman. Good to have the 
panelists with us today.
    Mr. Chairman, as you pointed out earlier, much has been 
said about NextGen, and I am not sure that I am capable of 
intelligently defining it. So I am going to be very elementary. 
I am going to have two questions. I am going to put the first 
question to Mr. Krakowski, and my second question to Mr. 
Scovel.
    My first question, Mr. Krakowski, is: What is NextGen?
    And my question to Mr. Scovel is: Who is in charge of 
NextGen?
    And I hope I am not being too elementary, but I need to 
know the answers.
    Mr. Krakowski. It is a frequent question in the last two 
years that has been asked. NextGen is an evolution, and as I 
think about NextGen, it is not a big-bang theory. It is not 
something you turn a light-switch on. It is a methodical 
modernization of how we run air traffic, not only here in the 
United States, but globally as well because our airplanes fly 
overseas, overseas aircraft fly here.
    So we have to have a common approach with common 
technologies and procedures to be able to fly airplanes closer 
together, on more efficient routes, and the current 
technologies do not permit that.
    One of the current problems with our system is it is 
somewhat like a hard-wired house with the old telephone system. 
It is not scalable. It is not flexible. It is not movable. If 
you look at the promise of satellite-based navigation, data 
communication, and all of the pieces that layer in, you are 
creating a system that has much more flexibility and 
scalability when traffic flows change, or when thunderstorms 
impact the system, so we can do it better than the current 
system allows right now.
    So in my mind, it is a march toward a system that just 
keeps improving over time.
    Mr. Coble. Thank you for that.
    Mr. Scovel, who is the boss? Who is in charge?
    Mr. Scovel. That is a very tough question, sir. In fact, 
you may recall from my testimony back in March and at a 
roundtable last year where the question of FAA's organization 
for NextGen implementation was raised. I expressed skepticism 
on the part of my office as to how leadership is to be 
exercised within FAA.
    It has been mentioned today that the incoming Deputy 
Administrator for the agency will have overall accountability 
for NextGen, and that is certainly true. But I would draw a 
distinction between political accountability, which of course 
rests with the Administrator and his Deputy. They are 
responsible for everything that happens or fails to happen in 
the agency, including NextGen, and day-to-day operational 
decision-making authority, which right now we see as being very 
diffused and fragmented.
    There is a Senior Vice President within the Air Traffic 
Organization whose title is NextGen Implementation and 
Operations Planning. However, that official does not have 
either personnel or budgetary authority over many of the key 
programs that will be necessary for NextGen, not even those 
within the ATO, much less those that are on the outside of that 
organization. Perhaps they are over in Aviation Safety or even 
elsewhere in the organization.
    In our view, for one of the key missions of the agency, if 
one of the key missions is to operate the NAS today safely, 
efficiently, effectively; another key mission, prepare to 
operate the NAS in the future safely, efficiently and 
effectively; FAA today is not properly organized to carry out 
that key second mission.
    Mr. Coble. Well, I thank you, sir.
    Mr. Krakowski, back to you. Will implementing the 
recommendations of the RTCA Task Force require delays in the 
implementation of NextGen, A? And B, is FAA still aiming for a 
2025 target window?
    Mr. Krakowski. I actually think you accelerate and start 
moving us to NextGen faster by adopting the RTCA 
recommendations. One of the most important elements of NextGen 
is aircraft being equipped with high-fidelity GPS systems in 
the aircraft. And much of the Task Force recommendations point 
to an increased usage of that so we can get better safety and 
efficiency on the surface of airports, more efficient routes in 
the system.
    So the more that we can provide near-term benefits closer 
in, moving the dial to the left, so that the airlines can be 
encouraged to equip with the higher-fidelity equipment, you 
start moving it toward a kind of a faster trajectory, and you 
actually make the system healthier as you are doing it.
    Now, there is a distinction. The Task Force recommendations 
don't speak to the longer NextGen vision of ADS-B, some of the 
larger programs like System-Wide Information Management, but 
those are moving along. Those are going to continue to move 
through our NextGen plan that has been defined by the JPDO and 
then by the NextGen organization within ATO as well.
    Mr. Coble. So 2025 is still the target window?
    Mr. Krakowski. We are not sure what we are going to end up 
with at 2025 at this point. I mean, it is an interesting target 
for some things to be in place, but the fact that the whole 
world is going to NextGen by 2025, I don't think we are there 
anymore.
    Mr. Coble. Mr. Chairman, can I ask one more quick question? 
The red light, I see, is illuminated.
    Ms. Jenny, let me put a question to you. It has been 
suggested that since the RTCA report focuses on maximizing 
capabilities from existing equipage, the recommendations really 
are not about NextGen. Is that a fair criticism?
    Ms. Jenny. Thank you. I don't think that is a fair 
criticism. I think I would agree somewhat with what Mr. 
Krakowski just said. The recommendations really are sort of a 
risk mitigation for moving toward the more sophisticated 
technologies. If we are going to develop and implement ADS-B 
and DataComm, to get the full benefit, if you just put the 
infrastructure out, nothing changes and you don't get a 
benefit. What you need to do to get the benefit is implement 
new procedures, train controllers and pilots, possibly change 
the way airspace is designed.
    What the NextGen Task Force says is let's do some of those 
things for the existing capabilities, for things like 
multilateration for RNAV and RNP. We will make all of those 
changes so that when we can go to ADS-B, all of that work is 
done. That increases the confidence of the community that we 
can do it, and it is much more likely that we will close the 
business case and move to NextGen faster.
    Mr. Coble. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Costello. I thank the gentleman.
    And now the Chair recognizes the gentleman from Iowa, Mr. 
Boswell.
    Mr. Boswell. Thank you, Mr. Chairman, and thank you for 
having this hearing.
    I won't address this to this panel, but I will just say 
this to you. Two weeks ago, I was all set to start all over 
again. I couldn't find you that day to talk about passengers' 
rights as I tried to travel across the skies of this Country, 
but I have calmed down since then, so I am good, but it is a 
concern.
    On this issue here, it was interesting to hear Mr. Coble. 
It seems to me like we are moving awfully slow. You have heard 
that before. It is a big, big thing. And I have just observed, 
as a user, that it seems like general aviation has adapted 
quicker and maybe it is much more complicated for the airlines 
and corporations and so on. I don't know.
    And then I get to thinking about the international side of 
it, and it is. So I think about the time you are getting ready 
to make a step forward, you find out Collins Radio or somebody 
has come up with a better idea to do it. The technology is 
moving so fast, so I don't know. Maybe Mr. Chairman, we just 
need to set a deadline and see what we could put together at 
that time, we do it. Otherwise, it seems like it stays open-
ended, and that is something we might want to think about.
    It has kind of changed a little bit here. Ms. Gilligan, 
would you explain the role that FAA's AVS plays in the NextGen 
and what are some of the specific processes that your office 
handles as it pertains to NextGen implementation?
    Ms. Gilligan. I would be glad to.
    There are two parts to the system, there always have been, 
the ground-provided infrastructure and the airplane. For many 
years, they were relatively separate. The ground provided 
service for separating air traffic and the airplane did things 
that assured that it was operating safely.
    But now, they actually can share those responsibilities. 
The airplane actually has a tremendous amount of capability, 
technology that it can contribute to separating airplanes, as 
well as to operating safely. To do that, operators and 
manufacturers need to have approvals, and those approvals go 
through the Aviation Safety Organization. And as someone 
commented, we want to make sure as we are making--as we are 
introducing those new processes and procedures that we are 
understanding whatever risk we may be introducing and that we 
are eliminating that or managing that or mitigating it as we go 
along.
    All of that is work that is done with our safety 
inspectors, with their operators, and with the manufacturers to 
understand the capability of the aircraft, to be sure the 
company, the operator develops processes and procedures, that 
they have training for their pilots and other staff members, 
and that that all comes together before we issue the approval 
to actually take advantage of what can be done in the system.
    So that is the role that we play.
    Mr. Boswell. I appreciate that.
    Now, in my previous statement, and I mentioned Collins, for 
example. That was a compliment.
    Ms. Gilligan. Yes.
    Mr. Boswell. I have been to their site and their 
laboratory, if you will, and it is amazing what they are 
putting into this and what we can expect even day by day. It is 
a compliment to them. They are really, really good.
    I would like to move on to Dr. Dillingham for a minute. In 
your testimony, you mentioned the need for FAA to change its 
culture to give NowGen and NextGen a better chance for success. 
What do you mean by culture change in this case? And how could 
this change be facilitated?
    Mr. Dillingham. Thank you, Mr. Boswell. I was referring to 
the tradition that FAA has with focusing on implementing or 
developing one system at a time and deploying it nationwide. 
The new paradigm has to be an integration and cooperation and 
multiple system deployment for the NextGen-kind of situation 
that we are in now.
    And if I could just go back to your first comment about how 
technology is passing and time is getting ahead of us. I think 
part of the answer to your concern is a part of what we are 
talking about now, and it is instead of focusing on 2025 and 
what may or may not be possible to do by that time, the focus 
now has shifted back to technologies that we know and 
procedures that we know that will end up making a difference 
now.
    So that I think that is why, you know, what RTCA and FAA 
has done is very, very important just because of the idea that 
you suggested, is that technology is moving awfully fast.
    Mr. Boswell. Thank you very much, Mr. Chairman. I yield 
back.
    Mr. Costello. The Chair thanks the gentleman, and now 
recognizes the gentleman from New Jersey, Mr. LoBiondo.
    Mr. LoBiondo. Thank you very much, Mr. Chairman, for 
holding this hearing.
    To our panel, thank you all for being here and for doing 
what you do.
    Mr. Krakowski, I have a couple of questions, but first I 
want to say a very special thank you for all of your help and 
assistance in the recent groundbreaking that we have had for 
the Next Generation Aviation Research and Development Park at 
the FAA Tech Center which is in New Jersey's Second 
Congressional District. I really believe that this park will be 
a force enhancer for the Tech Center, that it will be a force 
multiplier and will assist in many ways. So I thank you.
    Two pretty quick questions. First, Mr. Krakowski, as you 
know, in response to the recommendation of the GAO and others, 
this Committee included language in the FAA authorization bill 
to move the Joint Planning and Development Office out of the 
ATO and place it directly under the Administrator. My question 
to you is whether you think this is an appropriate 
organizational structure to ensure the success of NextGen? Or 
if you believe significant progress can be made under the 
current alignment?
    Mr. Krakowski. I actually believe that the JPDO is less of 
an issue for the purposes of this Task Force because the Task 
Force recommendations are near term. The JPDO was never set up 
as an implementing organization. It really was set up for 
planning and collaborating across other agencies for kind of 
the long-term plan, where are we going, what are the 
technologies that are going to get us here.
    It is the FAA. It is our responsibility and it is our 
mission to implement that which is going to make the system 
better, and it is the people that run the system every day 
through the current structure of the NextGen Management Board, 
which exists under the leadership of the Deputy Administrator, 
and has been for quite some time. A new Deputy Administrator 
coming in ties it all together between the Aviation Safety 
organization, people that run airports, people that run 
government affairs, and the ATO as well at the highest level 
toward the Administrator.
    So since we are more into an implementation role now versus 
planning and kind of long-term strategy, I think the current 
structure that I have described serves better, sir.
    Mr. LoBiondo. Okay. Thank you.
    And the second one, I think we can all agree that to design 
and implement the NextGen system, the FAA will need to hire 
more staff, especially if it were successful in accelerating 
the program. I know that the RTCA has raised concerns with 
staffing levels and certification offices, and I would like to 
see the engineering capacity at the Tech Center grow.
    But do you have a NextGen workforce plan for the coming 
years that you can share with the Committee?
    Mr. Krakowski. Yes, I would be happy to sit down with you 
and give you some detail on that. But we do agree that if we do 
not attract and hire the right kinds of talent, the right type 
of people, with the quality that we need, the program will 
suffer. This is high on our radar scope.
    Mr. LoBiondo. Okay. Thank you.
    Mr. Chairman, before I yield back, I would just like to 
recognize that who we affectionately call in New Jersey ``Mr. 
Transportation and Infrastructure,'' Mr. Bob Roe. Thank you for 
joining us today, the former Chairman.
    Mr. Costello. The Chair thanks the gentleman, and now 
recognizes the gentleman from Ohio, Mr. Boccieri.
    Mr. Boccieri. Thank you, Mr. Chairman.
    Thank you to the panel.
    I have a question for Mr. Krakowski. Earlier this year, our 
Ohio delegation sent a letter to you asking that the FAA's plan 
to consolidate several air traffic control facilities in our 
State be postponed until Congress has completed its work 
reauthorizing the FAA.
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] T3122.013
    
    [GRAPHIC] [TIFF OMITTED] T3122.014
    
    This Committee passed a bill that includes a process for 
aviation stakeholders to review and evaluate those 
consolidation proposals. The full House passed that bill. The 
Senate Commerce Committee has now passed the bill and we are 
waiting for the full Senate's action. Having these 
consolidations reviewed is important to me, and to the Ohio 
delegation and to the flying public in my State.
    I would like you to tell me today if you can take these 
consolidations off the table until they can be properly vetted 
by the bill's review process.
    Mr. Krakowski. Without actually thinking about that and 
having the document in front of me, it is difficult to answer 
it specifically. I would like to be able to do that with you at 
some other point.
    However, I will say this. One of the key issues around 
consolidation has been the sensitivity of our relationship with 
the controllers union and our ability to work together to find 
out whether or not the consolidations overall make sense. Just 
in the past few weeks, there is new leadership at NATCA, and we 
do have the contract behind us. Mr. Rinaldi, the new president 
of NATCA, and I, are talking about that very subject. In fact, 
we will be meeting next week, actually, to start talking about 
what that looks like.
    Until we get through that and until we understand what that 
looks like, we don't have any direct plans right now to 
continue marching toward consolidations in your area.
    Mr. Boccieri. Just to be clear, sir, you are saying that 
consolidations are not going to be on the table until you have 
had a chance to vet them and clearly refine that process?
    Mr. Krakowski. I would say we are putting them in abeyance 
right now until we get that process understood.
    Mr. Boccieri. It will be in abeyance. I am a military pilot 
in that area, and we have flown, you know, quite frankly, many 
low-level missions training and what-not. And I can speak 
first-hand that they have saved our neck quite a few times. And 
to consolidate those to a point where I think would jeopardize 
the safety of that region--you know, we are in between two of 
the most busy airspaces in America, class B airspaces with 
respect to Cleveland and Pittsburgh, and there is a lot of air 
traffic, single engine and multi-engine aircraft, doing, you 
know, just recreational flying, as well as military training in 
that area. So it would be detrimental to have that happen, in 
my opinion.
    Mr. Krakowski. If I may, just one quick comment on that. In 
the longer term as we get away from radars and the radar-based 
navigation system, we are going to have to look at what the 
right structure is going forward under ADS-B, but that is many 
years downstream.
    Mr. Boccieri. Great, great. We are going to get you a copy 
of this letter and maybe if I could have a moment of your time 
after the Committee to follow up with this.
    Mr. Krakowski. Very good.
    Mr. Boccieri. Thank you.
    I yield back, Mr. Chairman.
    Mr. Costello. The Chair thanks the gentleman, and now 
recognizes the gentleman from Michigan, Dr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman.
    And before I get to any questions, I would like to respond 
to my colleague, Mr. Coble, who asked what the meaning was of 
NextGen. And all I can say is, you know, the media likes to 
lump things in generations, generation acts and so forth. But I 
am pretty well convinced, Mr. Coble, that you and I and 
probably Mr. Boswell are members of what could best be called 
BestGen.
    [Laughter.]
    Mr. Ehlers. I offer that in all humility.
    At any rate--he is not going to touch that one. I 
understand why.
    I have a question, a very broad question here. And I have 
head a lot of discussion about NextGen and I have had a lot of 
reassurances, but I haven't heard any mention today of how 
seriously you are working at incorporating general aviation 
into the whole process. That is a very important part of this. 
It is not the big money part, but a lot of small businesses 
depend on that. A lot of people depend on it. Air ambulances 
depend on it.
    What is the involvement of general aviation in this? And 
how are you meeting their specific needs?
    Ms. Jenny?
    Ms. Jenny. Yes, I would be happy to take a run at that.
    The Task Force had pretty major involvement from general 
aviation, both the business aviation and general aviation 
involved in all of the deliberations, and were part of the 
consensus at the end.
    Of our seven categories of recommendations, one full 
category addresses general aviation needs, and that is the 
ability to fly in the low-altitude, non-radar airspace, and 
have more GPS approaches to the general aviation airports. It 
is one of the few recommendations that actually requires ADS-B. 
That was part of our report that went out.
    So I think from their perspective, I would say they felt 
fairly well represented by these recommendations for the mid-
term.
    Mr. Ehlers. Any other comments from any of you, 
particularly----
    Ms. Gilligan. If I could answer? In addition, we are 
working closely with GA community already in trying to approve 
their access. We have over 700 approvals, for example, for RNAV 
procedures. There are only about 90 airlines. So we are working 
with a lot of the general aviation and business community to 
make sure that they are able to participate in the system as 
well. Gulfstream, for example, is one of the leading 
manufacturers in helping provide the data we need to be able to 
approve operations for those people who fly Gulfstream 
aircraft.
    So we think actually we are learning a lot working with the 
GA community that will help us streamline our approval 
processes for everybody who operates in the system.
    Mr. Ehlers. And Mr. Scovel and Dr. Dillingham, do you, in 
your work there, have you noticed good involvement of GA in all 
the various stages?
    Mr. Scovel. Sir, from our perspective, it seems that GA has 
been somewhat left on the sidelines in the overall discussion 
of NextGen long term. It is greatly encouraging to us that the 
RTCA Task Force has taken a step to bring general aviation to 
the table at least when it is talking about access to the NAS 
by improving service at smaller airports.
    At this Committee's request, my office will be following up 
to observe and report on the actions of FAA in pursuing the 
RTCA Task Force recommendation in that specific area, sir.
    Mr. Ehlers. Dr. Dillingham, do you have any----
    Mr. Dillingham. I don't have anything to add to that, Dr. 
Ehlers.
    Mr. Ehlers. All right. Let me also make a comment. I have 
no further burning questions at this point. But we are dealing 
with an immensely complicated issue here. And I am not afraid 
of complications. In fact, I rather enjoy it. But I am feeling 
lost again. Every once in a while, I have to be in touch with 
reality.
    And Mr. Krakowski, maybe you are the best one to address 
this to. I think it is time again for some product 
demonstration, just something that we can see hands-on and see 
how it works. And I don't know if you are at the point of 
taking us up in planes and seeing how that operates, but at 
least look at it from the airport perspective, perhaps a visit 
to National again or bringing in equipment here, as you have 
done a few times. I think it would be very beneficial for the 
Committee and I encourage you to think about putting that on 
again.
    Mr. Krakowski. We would be delighted to do that.
    I would like to report that the other day, I flew my first 
LPV approach, which is localizer performance with vertical 
guidance, and I had never seen that technology before until I 
flew it the other day in one of the FAA airplanes.
    I was overwhelmed at the precision and the ease of flying 
that approach. And those are becoming more and more available 
in the system for general aviation every day.
    Mr. Ehlers. Good. I am glad to hear that.
    Thank you very much and I yield back.
    Mr. Costello. The Chair thanks the gentleman, and now 
recognizes the gentlelady from California, Ms. Richardson.
    Ms. Richardson. Thank you, Mr. Chairman.
    Having an opportunity for folks listening to say that we 
have talked about this for decades, I can agree, because I have 
been here for two years and it seems like many of the hearings 
I have been to, it has already been several times. So I look 
forward to us getting to the end point.
    My first question is for Ms. Jenny. Ms. Jenny, I don't know 
if you have had an opportunity to read the statement of Mr. 
Krakowski, but on page three, he talks about all the 
involvement of the board and the vice presidents and the chief 
operating officer. And yet in your testimony, you said that it 
really lacks the leadership and the focus.
    Can you explain to us based upon what system they say that 
they have in place, why you feel that that is not sufficient?
    Ms. Jenny. First, I should say that I can speak for the 
Task Force, and the recommendations in the Task Force, which 
again, as I said before, really did stop short of trying to 
tell the FAA how to go about implementing the recommendations.
    But there was a concern that because the capabilities are 
so integrated and so location specific, that it is different 
from the way things have been implemented in the past. And to 
be able to make sure that all the pieces come together, both 
across the FAA and in collaboration with the operators who also 
have to invest, that it takes a really key focus and a single 
point of accountability and responsibility to do that.
    So I think the jury is out at this point. I understand the 
FAA is taking all these recommendations in and looking at 
these. So we did not address specifically what is in Mr. 
Krakowski's testimony.
    Ms. Richardson. Mr. Krakowski, would you agree with the 
Board's recommendation of needing a single point focus?
    Mr. Krakowski. We believe we have that through the 
assignment of the Deputy Administrator. This is very different, 
what we are proposing here with these Task Force 
recommendations, than some of what was talked about with Dr. 
Dillingham and Mr. Scovel. These are not big programs being 
thrown out there. This Task Force is establishing a new way of 
doing business between FAA and the user community because they 
have to invest concurrently with us to make this happen. This 
is not just us modernizing our system and helping them with 
their current aircraft work in it better. They actually have to 
be part of this. So we have to look at each other almost every 
day going forward to make this happen. So this is going to be 
very different for all of us.
    Ms. Richardson. Mr. Krakowski, in the Board's 
recommendations, which I think there were 27 or 29--Mr. Scovel 
had several and Mr. Dillingham had several as well--could you 
please supply to the Committee the answers to whether you are 
either incorporating those or whether you intend not to and 
why. I notice in your testimony you covered a few of them but 
you certainly did not cover all of the recommendations that 
were provided.
    Mr. Krakowski. Yes. There is a lot of detail. First of all, 
I absolutely commit to giving you those answers. I would 
anticipate having those maturely available some time in January 
after we have gone through some of the processes I talked about 
earlier at this hearing, working with the RTCA committee to 
start prioritizing.
    Ms. Richardson. I would just say January or sooner if this 
Committee meets prior to that about NextGen.
    Mr. Krakowski. Okay.
    Ms. Richardson. Okay. Thank you, sir.
    Then finally, this is the last question, Mr. Krakowski. How 
do you see that you are going to prioritize how the airports 
will actually receive and begin utilizing NextGen?
    Mr. Krakowski. Again, the NextGen Management Board, which 
is going to be the governing body of FAA to pull it all 
together, has the Airports Associate Administrator on it. It 
has all of the key functionalities of FAA. Then, working with 
the RTCA Task Force, the ATMAC, and the Subcommittees going 
forward, all of that is represented there as well, too.
    I think your point is well taken that at times as we have 
tried to modernize the system we have done it without 
sufficient recognition of the contribution of the airport and 
how it operates in the system. When you think of Kennedy 
Airport and some of the airports, a lot of the issues which 
were appropriately identified in the Task Force reports are 
about surface management. How do we taxi aircraft in and out of 
the gate areas? How do we avoid clogging up a taxiway because 
it is not being managed effectively?
    Ms. Richardson. Also in Los Angeles, we also had a recent 
incident.
    Mr. Krakowski. Yes. Runway incursions--although we have got 
good news here, they are way down--that is always going to be--
--
    Ms. Richardson. I understand that we still had another one 
this week.
    Mr. Krakowski. Yes.
    Ms. Richardson. Thank you. I yield back the balance of my 
time.
    Mr. Costello. The Chair thanks the gentle lady.
    We thank this panel for testifying here today. We 
appreciate your testimony.
    I would note for the Subcommittee Members that the 
Subcommittee has asked General Scovel to monitor the 
implementation of the recommendations of the Task Force. I 
might ask General Scovel when the Subcommittee might expect its 
first report from you on the Task Force recommendations?
    Mr. Scovel. Sir, we would like a chance to look at FAA's 
promised January plan. We may have something to you six months 
thereafter.
    Mr. Costello. Very good.
    Mr. Krakowski, I would just continue to encourage you to 
work with Ms. Jenny in implementing the recommendations that 
they have made. The Subcommittee certainly intends to monitor 
the implementation and to continue to hold hearings concerning 
NextGen so that we can be certain that progress is being made 
and that we can move forward.
    Again, we thank you for being here today and offering your 
testimony.
    The Chair would now ask the second panel of witnesses to 
come forward please. I want to introduce our second panel: Mr. 
James C. May, the President and CEO of the Air Transport 
Association; Mr. Jens C. Hennig, Vice President of Operations, 
General Aviation Manufacturers Association; Mr. Dale Wright, 
the Director of Safety and Technology, National Air Traffic 
Controllers Association; Mr. Neil Planzer, Vice President, 
Strategy at Boeing Air Traffic Management, on behalf of the 
Aerospace Industry Association; and Mr. Ed Bolen, who is the 
President and CEO of the National Business Aviation 
Association.
    Again, we would say to the witnesses on this panel that 
your full statement will be entered into the record. We would 
ask you to summarize your statement.
    The Chair now recognizes Mr. May.

  TESTIMONY OF JAMES C. MAY, PRESIDENT AND CEO, AIR TRANSPORT 
  ASSOCIATION; JENS C. HENNIG, VICE PRESIDENT OF OPERATIONS, 
   GENERAL AVIATION MANUFACTURERS ASSOCIATION; DALE WRIGHT, 
    DIRECTOR OF SAFETY AND TECHNOLOGY, NATIONAL AIR TRAFFIC 
CONTROLLERS ASSOCIATION; NEIL PLANZER, VICE PRESIDENT-STRATEGY, 
   BOEING AIR TRAFFIC MANAGEMENT, ON BEHALF OF THE AEROSPACE 
INDUSTRY ASSOCIATION; AND ED BOLEN, PRESIDENT AND CEO, NATIONAL 
                 BUSINESS AVIATION ASSOCIATION

    Mr. May. Thank you, Mr. Chairman, and thank you Members of 
the Committee. The NextGen Task Force, which I think was 
admirably led by Captain Steve Dixon of Delta Airlines, did an 
outstanding job of setting a course to transition to NextGen. 
As important as that accomplishment is, there is a larger 
lesson to be learned, however, which is the urgency of 
benefitting from NextGen as soon as possible.
    The case for modernization is so compelling and so widely 
accepted and the need is so great that the introduction of what 
we all agree is readily available technology and the procedures 
to fully leverage it must become a national priority. To make 
that priority a reality, we think the Federal Government at the 
highest levels must provide decisive leadership and a 
substantial financial commitment.
    We know what NextGen can do. The technology is proven. We 
know we need NextGen. We know that stakeholders uniformly want 
its benefits. We know what has to be done operationally and 
financially. We know what we now need is the Federal Government 
to assume the mantle of leadership to make NextGen an early 
reality.
    The Federal role is indispensable if we are to have an 
airport and airway system that can responsively meet the air 
transportation needs of our Nation. The system does not do that 
today. The burden of this failure is about $41 billion annually 
on airlines and passengers.
    Modernization of the ATC system, however, must be based on 
a positive business case. Without that justification, we will 
not see the level and pace of investment that will produce the 
operational and environmental benefits that are so achievable 
from NextGen. Such foregone opportunities are truly 
intolerable. We have already witnessed that, for instance, in 
the failure to have RNP/RNAV procedures available when SeaTac's 
$1 billion third runway opened last December or an RNP/RNAV 
procedure engineered in Palm Springs, California that has never 
been used because it is inefficient.
    The Federal Government holds the keys to making NextGen a 
reality sooner rather than later. It must become, as I said, a 
national priority to which all necessary resources should be 
devoted.
    Leadership and full funding can make it happen in several 
years, not in the third decade of this century as is assumed 
today. Accepting anything less ambitious will needlessly 
shortchange our Country. Leadership, I point out, includes 
exhibiting the wherewithal to overcome the political 
differences that an undertaking of this magnitude will 
inevitably create. We need to be candid and acknowledge the 
state of affairs. For example, this means we cannot continue to 
dither over implementation of FAA's New York airspace redesign 
plan. NextGen will not work in New York, or anywhere, if 
individual interests frustrate the airspace improvements that 
will indisputably benefit us all.
    Leadership also includes accountability. Clear metrics must 
be established to measure the progress of the Government as it 
quickly introduces NextGen. At the same time, we need clear 
performance metrics to be established.
    Finally, leadership means a serious commitment to 
infrastructure investment. That is something we are all 
familiar with on the ground. It needs to be applied to 
equipping aircraft to take advantage of NextGen technology. 
Given the cost of equipage and the length of time it could take 
for an individual user to see a payback, such funding is 
crucial. This is infrastructure investment that can pay off in 
the next few years, and that payoff is within our reach. To 
place this into perspective, if Congress and the Administration 
were to provide a level of funding comparable, just comparable 
to the funding for high speed rail projects in this year's 
stimulus legislation, NextGen would be an early reality.
    Without this leadership and funding, implementation of 
NextGen will drag on and our Nation will suffer even more from 
airport and airway congestion. This Task Force has ably 
prepared our flight plan. We need to speed up our arrival at 
our final destination.
    Mr. Costello. The Chair thanks you, Mr. May, and now 
recognizes Mr. Hennig.
    Mr. Hennig. Chairman Costello, Ranking Member Petri, and 
distinguished Members of the Subcommittee, my name is Jens 
Hennig and I am the Vice President of Operations for the 
General Aviation Manufacturers Association.
    This hearing and other Subcommittee hearings earlier this 
year have contributed greatly to a better understanding about 
the NextGen program, where it stands today, and where it needs 
to go tomorrow to achieve the safety, economic capacity, and 
environmental benefits we all want to achieve.
    The general aviation industry, like others, is struggling 
in today's economic environment. GAMA member companies by 
themselves have experienced more than 19,000 layoffs since 
September of last year, which is almost 14 percent of our 
workforce. Despite these tough times, our member companies 
continue our history of investing in new products to help 
stimulate economic growth and future employment in general 
aviation. I was in Orlando just last week at a convention and 
down there our member companies continued this tradition by 
announcing new availabilities of NextGen capabilities such as 
ADS-B OUT, RNP, and data applications.
    From GAMA's perspective, there are two overarching points 
to be made about the Task Force. The first point is that we 
have reached a time where more focus needs to be placed on 
delivery rather than planning. The Task Force worked under the 
framework that ``it is about implementation''. Success in 
implementation now will mean more user confidence as we 
implement other transformational parts of the NextGen program.
    The second point is industry's involvement in air traffic 
control modernization. When we look beyond the horizon of the 
Task Force to the implementation of the full concept of 
operations for NextGen, the role of industry in its planning, 
research, and development remains essential. The Administration 
must continue to provide effective mechanisms for industry to 
continue to participate.
    I will now highlight some of the key recommendations of the 
Task Force from a GAMA perspective.
    The traditional process of modernizing our airspace was 
centered on ground equipment infrastructure. For NextGen, the 
term ``aircraft-centric'' is often used. It attempts to 
communicate this paradigm shift of moving part of the air 
traffic control infrastructure onto the aircraft. Greater 
reliance on aircraft avionics, however, makes an efficient 
process for avionic certification and FAA operational approvals 
even more important.
    When we look at streamlining of avionics certification, we 
note that significant work has been done over the past several 
decades to streamline these processes. However, more needs to 
be done for these improvements to be fully realized. We are 
pleased to hear Associate Administrator Peggy Gilligan already 
is in the process of moving forward with improvements in this 
area.
    As the RTCA report stresses, better coordination, clearly 
defined roles, and accountability between the Aviation Safety 
Organizations' different offices is needed.
    The Task Force also takes an important step forward by 
identifying opportunities to streamline the operational 
approval process and focus the FAA resources on essential 
safety functions. In this area the Task Force makes some 
practical recommendations, including that approval requests be 
combined into a single, comprehensive application package and 
that a clear path be created for aircraft manufacturers for the 
aircraft portion of the approval. Both will achieve better 
efficiencies. These improvements also enhance manufacturers' 
ability to put new products and capabilities into operation, 
which directly ties to our ability to sell equipment, create 
and maintain jobs, and compete in the global marketplace.
    GAMA has also long advocated for appropriate levels of FAA 
resources for certification. We have welcomed the attention of 
this Committee about this issue in the past. As we go forward 
with NextGen, ensuring that the FAA has adequate levels of 
engineering staffing resources to support ever-increasing 
levels of certification activity and the process improvements I 
have already described will become essential.
    I would like to close by discussing the RTCA Task Force 
endorsement of financial incentives for aircraft equipage as 
one of its overarching recommendations. These incentives become 
important when benefits reside not with the individual operator 
but with the overall system, another operator, or with the U.S. 
Government. We believe Government support for equipage is 
appropriate as the ATC infrastructure of the past is 
increasingly moving to the aircraft. We must all consider 
whether it matters in terms of Government funding if the 
infrastructure that is funded is built on the ground or in the 
air. GAMA stands ready to work with Congress, the 
Administration, and other industry stakeholders to further 
NextGen through financial incentives for equipage.
    In conclusion, Mr. Chairman, thank you for your leadership 
on this issue and for inviting GAMA to testify before the 
Subcommittee. We look forward to continuing to work with the 
Committee to ensure the safety, economic, and environmental 
opportunities of NextGen are realized.
    Thank you. I would be glad to answer any questions.
    Mr. Costello. The Chair thanks you and now recognizes Mr. 
Wright.
    Mr. Wright. Thank you, Chairman Costello, Ranking Member 
Petri, and Members of the Subcommittee. My name is Dale Wright. 
I am the Director of Safety and Technology for the National Air 
Traffic Controllers Association and was a professional air 
traffic controller for more than 32 years.
    NATCA has been deeply involved with RTCA in its work on 
NextGen. I personally have served on several work groups 
including Task Force 5, whose recommendations we are discussing 
this afternoon.
    The RTCA's NextGen Task Force is truly a collaborative 
environment. RTCA members from all aspects of the aviation 
community were given an opportunity to share their perspectives 
and expertise. RTCA recognizes the value of NATCA's knowledge 
of day-to-day air traffic control operation, the needs of the 
system, and the real world implementation of the proposals 
being considered. The collaborative nature of the Task Force 
helped RTCA to develop recommendations that were thorough and 
well-considered. I have a high level of confidence in the 
recommendations.
    In general, RTCA's recommendations encourage improving and 
expanding the use of current technology. NATCA supports these 
initiatives which include deploying ASDE-X beyond the OEP 35 
and expanding the use of precision runway monitoring and 
converging runway display aids. Each of these promotes improved 
situational awareness for both pilots and controllers, enabling 
the more efficient use of taxiways, runways, and air space.
    It must be understood, however, that the RTCA 
recommendations are only guidelines. The technological and 
procedural details and implementation decisions remain to be 
determined by the FAA. The FAA would be well advised to learn a 
lesson from RTCA and collaborate with NATCA as they continue to 
develop their NextGen plans. Former collaboration between the 
FAA and NATCA has been a critical component of success for 
modernization projects in the past. We believe it will be 
equally vital to the successful development of NextGen.
    We applaud the efforts by Administrator Babbitt to foster a 
partnership between NATCA and the FAA. But despite the clauses 
in the new contract that encourage collaboration through the 
efforts of the Administrator, the FAA's willingness to reach 
out to or work with NATCA has been inconsistent at best.
    Last month, Representative Eddie Kragh spoke before this 
Subcommittee about his participation in the New York VFR 
Airspace Task Force, which was formed in response to the 
accident over the Hudson River. NATCA applauds the FAA for 
including NATCA in response to this tragedy. Unfortunately, the 
FAA has not taken this approach on other projects equally 
critical to aviation safety. The union has been rebuffed in our 
attempts to be meaningfully involved in airspace redesign 
efforts and ERAM. Just last week we were even refused a formal 
briefing on ADS-B despite the centrality of each of these 
programs to the FAA's NextGen plans.
    While NACTA is pleased to have the opportunity to 
participate in the RTCA Task Force, it is a privilege that we 
pay a membership fee for and is not a substitute for direct 
collaboration with the FAA.
    Meaningful collaboration with NATCA will prove critical in 
addressing certain outstanding concerns. For example, the RTCA 
report dealt extensively with the best equipped, best served 
plan for incentivizing equipage. In order for any such plan to 
be workable, a controller must be able to determine at a glance 
the extent to which each aircraft is NextGen equipped. This 
information is not currently displayed on the radar scopes and 
most terminal controllers do not have access to flight progress 
strips that contain this information. In order for any best 
equipped, best served plan to be successful, this information 
must be displayed on each controller's scope.
    The FAA must not forget that it is ultimately the people 
and not the technology that keeps the national airspace system 
operating safely and efficiently. This means that every new 
technology and procedure must be considered for its human 
factor implications. The FAA must also ensure that the human 
infrastructure is adequate to support the current and future 
traffic levels and the changes that NextGen will bring.
    In April of 2009, the Inspector General reported that the 
FAA faces an increasing risk of not having enough certified 
controllers in its workforce. The air traffic controller 
workforce has an understandably high ratio of training and has 
suffered a troubling loss of experienced controllers over the 
past three years. As we prepare to transition into NextGen, 
training and experience are of paramount importance. Glitches 
in the implementation are unavoidable so it is critical to have 
controllers who are easily able to adapt and maintain safety 
during testing and early implementation.
    The FAA must also ensure that any significant changes to 
technology or procedures be accompanied by comprehensive 
training for both pilot and controllers. NATCA is concerned by 
the recent precedent set by the FAA with regard to training. 
Often changes in operational procedures are implemented without 
any kind of meaningful controller training. Instead, a binder 
is placed in the operational areas containing memos announcing 
the change. Controllers are instructed to read and initial 
these announcements. By doing so, the controller assumes the 
responsibility for having learned the new rules. This is 
unacceptable.
    Controllers must be fully briefed on all changes in 
technology and procedure and must have the opportunity to ask 
questions. If changes are significant, they must have the 
opportunity to participate in simulator training.
    NATCA remains dedicated to ensuring that the national 
airspace system is safe, efficient, and accessible for all 
members of the flying public. We look forward to working with 
the FAA to improve the national airspace system and to being a 
meaningful part of finding solutions to the issues facing 
NextGen.
    Thank you very much.
    Mr. Costello. The Chair thanks you. I might mention that 
NATCA and other stakeholders will, in fact, be at the table 
when the reauthorization bill passes and ends up on the 
President's desk. There is language both in the House bill and 
the Senate bill that mandates that NATCA and other stakeholders 
be at the table.
    The Chair now recognizes Mr. Planzer.
    Mr. Planzer. Mr. Chairman and Ranking Member Petri, thank 
you for the opportunity to represent the Aerospace Industries 
Association today. Marion Blakey sends her regrets for not 
being able to be here today.
    The Aerospace Industries Association, of which my company 
Boeing is a key member, represents 637,000 high wage, high 
skill positions in the United States. The Aerospace Industries 
Association's 300 members provide a trade surplus in excess of 
$57 billion. The future of the Aerospace Industries Association 
and its civilian members critically need NextGen's success. It 
is our intent to grow our employment, grow our surplus, and to 
continue to apply to America those economic strengths that this 
industry provides and has provided over the years.
    RTCA did a very difficult task for this Government. At the 
request of this Committee the FAA, they did a review of what 
could be done in the short and near term. They should be 
credited for doing that. When we look at it, it is imperative 
to understand that what they did is not an end, but must be 
integrated and woven into the tapestry that is the integrated 
work plan for NextGen. When you take out of that context a 
couple of pieces, you realize that this is a difficult task.
    When you look at RNP, Required Navigational Performance--a 
number of people have mentioned it today--you realize that we 
are measuring our success by activity. In order for NextGen to 
be successful, in order for the FAA to be successful, in order 
for us to proceed the way this Committee wants us to go, we 
need to start to measure outcome, not activity. A thousand new 
RNP procedures that do not reduce flight time, do not increase 
the safety of the system, do not reduce environmental 
emissions, and do not have city-paired times decreasing are 
really of very little value. I could say the same thing about 
ADS-B and other pieces. So we understand that the outcome that 
is necessary is what we are looking for, not the activity.
    Let me take a moment to share with you a personal story. In 
1957, as a very young child, my parents gave me the opportunity 
to visit my sister in Boston. I lived in New York. I remember 
it vividly because it was the first time I traveled by myself 
and my first time on an airplane. My dad drove me out to 
Idlewild Airport, which is now John F. Kennedy Airport, and 
they put me on a Capital Airlines DC-3. That airplane cruised 
at 160 miles per hour and that blessed trip that I remember so 
well took an hour and ten minutes from New York to Boston. We 
do that same trip today in a Boeing 737-800. It cruises at 595 
miles an hour, yet the time between those cities has gone from 
an hour and ten minutes to an hour and forty-five minutes, 
almost 50 percent more. The last time I looked, those cities 
had not moved. So we know that the system has created a 
problem.
    We need to measure our outcomes and that will drive the 
Agency and the industry to give this Committee what it wants. 
City-pair times need to be reduced. Safety needs to be 
increased. Runways need to be built where they are needed. 
Runway occupancy times are critical to understand how this 
system will expand capacity.
    If all we do is efficiency, then we will not have the 
increased the capacity that my company and the Aerospace 
Industries Association is trying to foster in order to create 
what this Nation needs in value positions, high income, and 
high salaried jobs for this country. We are one of the few 
areas left that generates the kind of trade surplus that we do. 
I think it is critical that those metrics move in as part of 
the measurement of our success.
    Everybody is talking about the great job that we have done. 
If we had done this two years ago, and you did, we would have 
heard a lot of the same answers. So the question for us moving 
forward is how do we need to change things so that we are not 
here in two, three, four, or five years. I would like to offer 
up on behalf of our constituency that metrics are the key point 
to that.
    Thank you very much for the opportunity. I will enjoy any 
questions you may ask us.
    Mr. Costello. The Chair thanks you and now recognizes Mr. 
Bolen.
    Mr. Bolen. Thank you, Mr. Chairman. I would like to thank 
you, Ranking Member Petri, and this entire Subcommittee for 
holding this hearing today. For decades the United States has 
been able to say that it has the largest, the safest, the most 
efficient, and the most diverse air transportation system in 
the world. NextGen is about being able to say that same thing 
for decades to come.
    General aviation has always been at the forefront of trying 
to promote system modernization. General aviation was among the 
first early adopters of GPS, which we all know will be the 
basic navigation technology in NextGen. We have been early and 
strong proponents of ADS-B, which we recognize will be the 
surveillance technology of NextGen. In fact, general aviation 
pushed to have ADS-B test programs in Alaska and at the Atlanta 
Olympics. We have pushed system capacity by supporting reduced 
vertical separation minima within the United States within this 
decade. And general aviation was on the commission that 
actually recommended what we are now calling NextGen.
    As Jens Hennig pointed out, these are tough times for the 
general aviation industry. This past year has been among the 
worst we have ever endured. Nevertheless, we remain totally 
committed to NextGen. I believe that RTCA's Task Force 5 is a 
significant step toward making NextGen a reality. Among other 
things, RTCA's Task Force 5 has strategies for accelerating the 
timeframe for NextGen and strategies for incentivizing 
equipage. It brings home the fact that in order for us to 
receive real benefits from NextGen, we will need a critical 
mass of airplanes to be equipped. And it points out, 
significantly, that equipage not only means what the Government 
needs to do but what operators need to do as well.
    Another significant point from Task Force 5 is it truly 
brought the industry to the table. Mr. Chairman, in your 
opening comments you talked about the fact that general 
aviation, the airlines, the controllers, the airport community, 
we were all there. And as Dr. Sinha mentioned, it was not just 
the operational people or the technical people. Financial 
people were there as well.
    Significantly, Task Force 5 does not rely on breakthrough 
technologies or breakthrough research. It builds on 
technologies that we already understand. We know how to get 
this done. I think it is also important that the timeframes 
that have been put forward by RTCA are very aggressive. They 
push us all beyond our comfort zone, but they are all 
achievable. They are within reason.
    Now, at NBAA, we have a working definition of NextGen. We 
say that NextGen is the procedures, the policies, and the 
technologies necessary to expand system capacity, to reduce 
delays, to enhance safety, and to reduce our environmental 
footprint by improving situational awareness, allowing more 
direct routing, and having precise spacing.
    We believe that to date the Joint Planning and Development 
Office has set the magnetic North for NextGen. We believe that 
the RTCA Task Force 5 recommendations give us those immediate 
steps to get us on our way. We support the recommendations. We 
are wanting to work with you on a close, collaborative basis to 
make NextGen a reality.
    Thank you.
    Mr. Costello. We thank you, Mr. Bolen.
    Mr. May, since you and I have discussed this more than once 
in person and in your testimony you say that we know what 
NextGen can do and the that technology is proven, for the 
record do you want to elaborate on that?
    Mr. May. Thank you, Mr. Chairman. I think that the 
definition of NextGen that Mr. Bolen just delivered would be 
one shared by everyone at this table and certainly by ATA. It 
is the ability to have the processes and procedures to deploy 
the digital satellite technology that we need to begin to 
safely space our planes more closely together, to fly more 
efficient routes, and to save fuel.
    I have a couple of counter examples to that. One of our 
carriers, Southwest Airlines, has invested over $175 million in 
RNAV/RNP procedures. They fly to 68 airports. There are roughly 
68 or 69 RNP procedures at those airports with 410 runway ends. 
Of those, maybe six are actually efficient. The rest of it is 
wasted work on behalf of those that are engineering those 
procedures. I talked about the runway in Seattle--a $1 billion 
investment, but it did not have RNP/RNAV procedures for Alaska 
Airlines and all the rest that want to be able to use that.
    So what you have heard here consistently and from almost 
every witness is that technology is available. Deploy it. The 
procedures, however, need to be worthwhile. We need to have 
them save fuel, have more direct routings, and have more 
efficient landings and take-offs. We need all of those things 
to be performance metrics, as Neil Planzer just talked about, 
to work into the system. That is what is going to be critical 
to us. Otherwise, all this investment is not going to be worth 
much of anything.
    Finally, we need leadership at the very highest levels of 
this Government to determine that this is the Eisenhower era 
National Highway Reform project of our era. Air traffic control 
needs to be that kind of a priority. We cannot let politics 
stand in the way whatever we do.
    Mr. Costello. Thank you. Mr. Bolen, you indicated that you 
support the recommendations of the Task Force. You state in 
your testimony that utilizing existing equipment on aircraft 
today has produced little or no return on investment. I think I 
know what you mean by that statement. But for the record, would 
you elaborate?
    Mr. Bolen. Well, this gets to some of the GPS technologies 
which are available today and I think were illustrated in a 
compelling manner by Mr. Planzer as he talked. We, in fact, 
have a generation of airplanes in some cases that are being 
retired with the equipment onboard that has never really been 
utilized. We want to have an opportunity to use all of the 
available technologies we have today to create as much system 
capacity and as much efficiency as possible. Doing that is 
simply a matter of having policies and procedures that 
facilitate that.
    That is why NextGen is not a big bang. It was talked 
earlier about how it is a build a little, test a little. It is 
a collection of policies, procedures, and technologies all 
working together. That is why there is so much we can do. It is 
not flipping a switch on something new. It is about making lots 
of little steps that collectively are going to be 
transformative in nature.
    Mr. Costello. Thank you. The Chair now recognizes the 
Ranking Member, Mr. Petri.
    Mr. Petri. Thank you very much. I just have limited time. I 
wonder if I could ask Mr. Planzer to expand a little bit on 
talking about benchmarks and trying to work in a more 
collaborative way. Start with how we can break the problem down 
and start moving forward. You talked about trying to not 
measure or benchmark inputs but to look at outputs.
    I can remember as a kid riding the old 400. It was called 
the 400 in the midwest because it went 400 miles in 400 
minutes. The high speed rail we are talking about today is not 
going to achieve that goal either. So partly, I guess, it is 
more congestion and a variety of factors.
    But in any event, one other aspect to this, there is a 
whole parallel rollout of NextGen in military aircraft. They 
have 13,000 planes. When we talk about collaborative efforts, I 
am sure there are some things we could learn if we could get 
the Task Force working with the--you work with the Pentagon. 
Boeing makes planes for military as well as civilian use. A lot 
of the equipment overlaps. Some problems are different but 
there are certain things that we could learn from ourselves, in 
effect, in benchmarking or in moving this modernization process 
forward. Could you in any way explain how we could help to 
measure and encourage step-by-step progress in this area, 
knowing that airlines have to make money and so if we do a 
benchmark we would want to do it in a way that encourages, does 
not just tell them, but encourages them and makes it in their 
interest to move that part of it forward.
    Mr. Planzer. Congressman Petri, I will try to do that. I 
would like to say that I served for six years as a senior 
executive at the Department of Defense managing air traffic 
control, and also served in the Air Force as a much younger 
man. So I do have some understanding of it. I would offer you a 
couple of things.
    Number one is, NextGen is not part of a civilian 
modernization. It is the modernization of a Federal air traffic 
control system. The reason we say it is Federal is because it 
serves both the civil and the military. Defenders and first 
responders are critically important to the growth of NextGen. 
And NextGen must show the value of a transformed system to 
those organizations. The function of the JPDO that should 
continue would be an integrated management of good Government 
integration for those two pieces. The outcomes, it is not even 
outputs, it is outcomes that you want to measure, are those 
things that are consequential to both. We know that the Air 
Force, the Air Mobility Command that operates the tankers and 
the lifters for our defense are critically operated very 
similar to the members that Mr. May represents. It is a 
Government use of airplanes on a schedule and has some ability 
to move forward. The outcome that they will want to measure is 
no different. The equipage that they have to put onboard is no 
different. The difference is it is a direct funding from the 
taxpayer in order for us to do that.
    So when we look at outcomes, we want to measure those 
outcomes to what the industry, civil, the military, and first 
responders have to do. The FAA had a program called Network 
Enabled Operations that was demonstrating how to integrate 
those. One of the key functions, we have spent a lot of 
treasury developing a system-wide information management system 
that is the backbone of the DOD's defense structure. We are not 
fully utilizing that in the civilian world. And when I look at 
the SWIM process, system-wide information management that the 
civil side is doing, I am concerned that we are not pulling in 
all that expertise that the DOD owns and we have paid for over 
the past several decades.
    A weak system-wide information management system that does 
not connect to the military or to DHS but only works on a 
limited basis within the civilian market is, in my opinion, 
speaking for myself, a mistake. So system-wide information 
management is a key component of NextGen that is siloed out and 
is not currently being developed. We should lean on the 
military and DHS and bring them in closer, and they have to 
trust the civilian world will meet their needs as well as those 
of the civilian enterprise.
    Mr. Petri. Thank you.
    Mr. Costello. The Chair thanks the Ranking Member. We now 
recognize the gentleman from Iowa, Mr. Boswell.
    Mr. Boswell. Thank you, Mr. Chairman. Mr. Chairman, I think 
we all agree that everybody at this table is extremely 
important as we move this along. I just cannot imagine that 
anybody would not want everyone there. And sometimes over the 
last couple of years I have heard the discussions going on 
regarding, well, maybe not the controllers. I do not buy into 
that at all. I just think it is extremely important, at least 
when I am pushing the throttle, that those people who are 
monitoring, watching, working the mechanism, talking to me and 
everybody else of the 80,000 flights per day, or whatever it 
is, are extremely important. So I would just like to address 
this question to you, Mr. Wright, if I could. Do you feel--let 
me put it this way. The GAO has found that literally millions 
of dollars could be saved by getting stockholders involved. 
Will the new contract signed by the FAA and the air traffic 
controllers help foster the collaborative cooperation necessary 
to help build a better air traffic control system? Are you 
involved?
    Mr. Wright. Thank you, Mr. Boswell. I do believe that the 
new contract will foster that relationship. As you know, I am 
sure the Committee remembers back, the GAO did report in 2004 
having experts and technical people on their light controllers 
to save like $500 million in STARS. As a matter of fact, I 
would like to submit two excerpts from that report from 2004 as 
part of my testimony. ANACA wants to be involved. We really 
appreciate the opportunity of the RTCA to be involved. We stand 
ready to be involved with the FAA. Our new contract has two 
articles for that, one specifically for NextGen, Article ll4, 
and we hope that things will change and we will be invited to 
be participating at the front end.
    [The referenced material follows:]
    [GRAPHIC] [TIFF OMITTED] T3122.015
    
    Mr. Boswell. Thank you. Mr. Chairman, I just think we must 
insist this happens. I would be glad to work with you in any 
way I can, because I talk to a lot of people who are the 
drivers, the suppliers, the pilots, and you do, too, and I 
cannot imagine doing this safely without having the controllers 
involved in the discussion, in the hands-on of what they have 
to do, calling upon their expertise and experience that they 
have accumulated. Pretty much like Mr. Planzer was talking 
about. It is extremely valuable. It would be absolutely 
unacceptable not to include that in every step of the way. 
Thank you. I yield back.
    Mr. Costello. The Chair thanks the gentleman, and now 
recognizes the gentleman from Michigan, Dr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman, and thanks to the 
panel. It has been a very good panel. You have stated your 
positions very clearly. Mr. Chairman, I have no questions. I 
think we have all benefitted from the testimony we have heard 
from these gentlemen. The only suggestion I could make is that 
we should have a few gentle ladies on the panel, too. But I 
want to thank everyone for being here. It has been very 
helpful. I yield back.
    Mr. Costello. The Chair thanks you and we will take that up 
with staff.
    [Laughter.]
    Mr. Costello. The Chair now recognizes the gentle lady from 
California, Ms. Richardson.
    Ms. Richardson. Thank you, Mr. Chairman. Mr. May, could you 
give us any real world examples of your carriers' experience 
with NextGen technologies, like RNAV or RNP?
    Mr. May. RNAV/RNP. I actually just gave an example. I think 
you were out of the room attending to other business. But a 
very quick example is Palm Springs, California, not far from 
your area of California, where they put in a RNAV/RNP procedure 
but it was longer and more cumbersome than the traditional ILS 
procedures going into that airport. So they spent all the money 
to develop the engineering and it is not being used. That is 
just one quick example. There are many others.
    Ms. Richardson. Has that information been shared with Mr. 
Krakowski?
    Mr. May. It has been. Believe me, many times.
    Ms. Richardson. And what was the response, or have you 
gotten a response?
    Mr. May. I think they are in the process, as he testified 
and I sat here and listened to him this morning, of coming up 
with new plans to redirect RNAV/RNP. But I think another 
classic example is the airport in Seattle. A brand new runway, 
nobody put in a RNAV/RNP procedure. And it can't be just an 
overlay of an existing ILS procedure. It has to be more 
efficient or it is not worth doing. It has to save us fuel, it 
has to allow us to fly more direct routes.
    Ms. Richardson. Are you at the table with these 
discussions? Are you included and one of the stakeholders of 
some of this review?
    Mr. May. I co-chair the IMC, which is part of the industry 
advisory group for the JPDO. We have active involvement. One of 
our key management pilots led Task Force 5, or co-led Task 
Force 5. So we have some very significant involvement and we 
hope to have even more.
    Ms. Richardson. Okay. Could you supply to this Committee if 
for any reason you are not satisfied with the response from Mr. 
Krakowski.
    Mr. May. No.
    Ms. Richardson. Could you supply to this Committee----
    Mr. May. I will be happy to reply to the Committee but I 
think Mr. Krakowski--this was done prior to his being onboard. 
So I think the direction he is headed is a much more productive 
and positive one.
    Ms. Richardson. Okay. Well, let us know if that changes.
    Mr. May. Thank you.
    Ms. Richardson. Also Mr. May, in your testimony on page two 
you said that leadership also includes accountability and that 
clear metrics must be established to measure progress of the 
Government as it quickly introduces NextGen. Do you feel that 
is happening?
    Mr. May. I think it needs to happen. I think the Chairman 
talked to Inspector General Scovel about making sure there were 
metrics involved and they were being adhered to. I think those 
are performance metrics that the FAA has to live up to. The 
other performance metrics are the ones that my good friend Mr. 
Planzer talked about, which is if you put these procedures in 
place, if you spend the money to invest in new technology, is 
it going to be better technology, more productive technology, 
are we going to cut down on our carbon footprint, are we going 
to burn less fuel, are we going to cut minutes from our travel 
schedules. And if you do not have those kind of performance 
metrics, then a lot of this is wasted effort.
    Ms. Richardson. Okay. If there are any others other than 
what you just stated that is on the record, feel free to supply 
them to the Committee. And I would say again, if you feel you 
are not being heard or responses being taken into 
consideration, please let us know before they come back, which 
I think Mr. Scovel was saying could be as late as June of next 
year.
    Mr. May. We are not shy.
    Ms. Richardson. Okay. Thank you, sir. And then finally, I 
have a minute, Mr. Wright, like my colleague Mr. Boswell, I am 
a little concerned that it seems to me the last time we had 
this particular evaluation of NextGen there was the talk of the 
involvement of the Air Traffic Controllers. So am I 
understanding you correctly that there has been no better 
progress of the involvement?
    Mr. Wright. We still do not have any what we would call 
project representatives for NextGen. Myself and the other 
person that work in safety and technology attend most of the 
meetings in town with RTCA and industry. At the FAA, we have 
met with Ms. Cox, the Senior Vice President, a couple of times. 
We have discussed what reps are needed but there has been no 
progress made toward actually selecting representatives. So we 
are still not involved with the representatives at that level.
    Ms. Richardson. Okay. Then I would like to concur with my 
colleague, Mr. Chairman. If you would consider, maybe we could 
do a letter or something urging their involvement once and for 
all. I yield back.
    Mr. Costello. The Chair thanks the gentle lady. Let me 
mention that NATCA was involved with the Task Force but has not 
been with the working group, has not been consulted. And that 
is addressed in the reauthorization bill. We actually direct 
the FAA that it is mandatory to have the stakeholders, 
including NATCA, at the table in all of the discussions, not 
only in the design but in the implementation of NextGen.
    And let me mention as well to another one of your points, 
it has been one of the problems with NextGen, in my judgement, 
that in the past the FAA has not gone out and consulted with or 
gotten commitments from stakeholders. And this is the first 
time to my knowledge where we have through this Task Force, 
because of the demands of many in the industry and this 
Subcommittee, the hearings that we have held and the 
roundtables and the meetings that we have had with the FAA, 
this is the first time that it has been done in a comprehensive 
way through this Task Force.
    And now that the recommendations are made, it is up to the 
FAA to figure out how they are going to implement these 
recommendations, and it will be up to us and the Inspector 
General, as the Subcommittee has asked him to monitor the 
implementation of these recommendations and to report to us, 
and we will be holding further hearings on NextGen where we 
will bring the FAA back to the table as well as the Inspector 
General to monitor the implementation and also to make certain 
that the stakeholders involved are in fact being heard. So the 
Chair thanks the gentle lady.
    The Chair now recognizes the gentle lady from the District 
of Columbia, Ms. Norton.
    Ms. Norton. Thank you very much, and thank you very much 
for this important hearing, Mr. Chairman. This question can be 
answered perhaps by any of you but particularly Mr. Hennig and 
Mr. Wright might want to respond. It has to do with related 
work in which I am involved on the Homeland Security Committee. 
I am interested in what you are doing in relationship to 
technology of course, which is one of the driving forces here 
as far as the Government is concerned. I worked on the part of 
a bill that passed that Committee that establishes a working 
group to try to conform the large aircraft protocols to fit 
general aviation.
    I am also very much aware particularly in the case of 
general aviation, who we are talking about We are talking about 
small operators, small businesses. Certainly you, Mr. Hennig, 
are aware that we have virtually destroyed general aviation in 
the Nation's Capital. It is almost inconceivable that there 
would be any capital even of some tiny country that did not 
feel it could defend itself well enough to let aircraft 
carrying business people and dignitaries come in. Indeed, 
within days general aviation was up in New York City. That is 
where 9/11 occurred. That is where most of the chatter is 
about, not the Nation's Capital. That is where they have 
skyscrapers which are easy targets. They are up. And you can 
call us up but, of course, we are no such thing.
    I am interested in whether you think the technology with 
which you are working provides adequate security for general 
aviation instead of what we have today? An operator has to have 
an armed marshal. There are very few of them. This is not their 
day job. So you cannot even get one. If you want a small plane 
that has four seats, well there goes one of them to this armed 
guard. And then you still cannot come in here. You have to go 
to some gateway airport. And if you are willing to do all of 
that, you have got to make sure you have done paperwork by the 
ton to get into Washington, D.C. Do we have the technology to 
get rid of that and to resurrect or to let general aviation 
become a part of doing business with the Nation's Capital 
today?
    Mr. Hennig. Thank you Congresswoman Norton. Let me start by 
saying thank you for your support related to the Large Aircraft 
Security Program. We have seen great progress with the TSA over 
the past six months since May. They have sat down with industry 
in various settings and tried to work towards a practical 
solution. We are being told we are going to see a new version, 
a new proposal coming out of the agency towards the end of this 
year or the beginning of the new year that incorporates this 
feedback that we have been able to provide back to the TSA 
through the type of work group that you identified.
    When it comes to the District of Columbia, obviously there 
is still a lot more work that needs to be done. Anybody that 
flies here in the airspace knows about the issues that exist. 
TSA and the other agencies involved, Secret Service and others, 
sees the District as a very unique set of airspace. When we 
work with TSA the one technology solution that we have really 
come to identify as a long term solution is that the agency is 
really interested in knowing more about the aircraft that are 
up there flying. There are some immediate solutions that are 
already out there. We have a system called ACARS that we are 
working loosely to try to test. It is a partnership actually 
between my colleague Ed Bolen and the TSA to look at the 
opportunities to just provide information back to the TSA on a 
security perspective on what is going on in the cockpit. That 
is one solution.
    Near term, I think a lot of the solutions we have for 
security are, unfortunately, procedure oriented. There are 
people managing those procedures. It is the controllers playing 
an important role. So.
    Mr. Bolen. If I could follow up on that. You are exactly 
right that we say Reagan National is open for business, but it 
is not. Prior to 9/ll we would have 30,000 operations per year 
at Reagan National Airport. Today we have about 300. Which 
means that we have effectively eliminated 99 percent of the 
general aviation operations at Reagan National Airport with 
these restrictions. I think we are having some progress being 
made with the TSA along those lines.
    With regard to NextGen technologies, I will say that the 
backbone of the NextGen surveillance technology is ADS-B. ADS-B 
will allow us to know more about the identity and the intent of 
all airplanes. So in that respect, there is a NextGen component 
that could be enormously helpful at promoting operations. 
Because at some point we have got to move beyond these 
restrictions that are in place. They are effectively killing 
general aviation.
    Mr. Wright. And as to the controller perspective, we have 
the equipment now. It is just the rules that prevent the 
general aviation. As a pilot, I would much rather fly my plane 
to D.C. than drive it about every week. It would save me a ton 
of time if they could do that.
    Ms. Norton. Thank you very much. I think these comments are 
very important and the feedback that you give us about how TSA 
may be looking more closely at, if I may say so, this Gen but 
certainly NextGen to try to get us back in the real 21st 
century world of general aviation. I thank you for your work. 
Thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks the gentle lady and now 
recognizes the distinguished Chairman of the full Committee, 
Chairman Oberstar.
    Mr. Oberstar. Mr. May, you have some very thoughtful 
comments, questions in your written testimony, unfortunately I 
was not able to hear your oral delivery. I had some other 
Committee work. You say the technology is proven. But there are 
many parts. NextGen is not one technology, it is many parts. 
Which parts are proven?
    Mr. May. I think RNAV/RNP is proven. I think a lot of the 
elements of data com are proven.
    Mr. Oberstar. To the satisfaction of your carriers, is that 
what you are saying?
    Mr. May. Yes, sir. And it is not the technology of RNAV/
RNP. That was developed, as you better than anyone else knows, 
during the Capstone project in Alaska by Alaska Airlines and 
others. So the technology is there but it does not do any good 
to have that technology if it is not correctly applied, number 
one. If it is simply overlaid over ILS procedures, it is not 
going to be efficient. It has to give us meaningful, measurable 
results that cut down on our carbon footprint, that save us 
fuel, that save us time.
    That is what makes the business case and it does not exist 
right now. We have to have a full collaborative coordination 
with Dale and the rest of the folks at NATCA so that we know 
that if you are going to institute fan departures out of 
Philadelphia or JFK in New York, some of the most complicated 
airspace in the world, that the controllers are actually 
onboard with the policies and the procedures set by FAA.
    Mr. Oberstar. That is what I am getting at. There are 
pieces of NextGen that are tested, proven, some operable. What 
are those parts that are going to be, what are those aspects of 
NextGen that are going to be the most valuable to commercial 
aviation? Continuous glide path, for example, climb out 
procedures, not having to do the step down, and are there 
pieces that will have time and fuel saving benefits for air 
carriers that can be implemented independently without 
sequencing them into the whole structure that FAA has laid out?
    Mr. May. Mr. Chairman, I do not think that they can. I 
think that it is a function of not just the pure nature of the 
technology of ADS-B, for instance, or RNAV/RNP, but the use of 
that technology, the procedures that are involved, the pilot 
training, the controller training, how they are deployed.
    So if we are going to have real positive benefits in New 
York, for instance, it is going to start with New York airspace 
redesign and then it is going to have to have NextGen deployed 
in New York. It is one of the recommendations of Task Force 5 
that it be in a metroplex like New York.
    We think they have identified the technologies. I think 
they have also identified the hurdles that we have to get over, 
which is we have got to have FAA give us performance metrics 
and we have to have reliability that we have a fully 
functioning system that involves the air traffic controllers, 
our pilots, others to make it work.
    ATA's position has been from the get-go, and we shared 
this, at his request, with Dr. Larry Summers in the NEC and the 
Administration, that I think the best way to jump start this 
process is to fund the equipage for all aircraft, GA as well as 
military as well as civilian, so that we do not force the 
controllers to deal with mixed equipage as we go into a lot of 
these places. But at the end of the day, it is a three-or four-
legged stool that involves controllers, it involves policies 
and procedures, and it also involves having performance 
metrics.
    Mr. Oberstar. I am glad you had that encounter, let us say, 
with Dr. Summers. But do not hold your breath. I do not.
    [Laughter.]
    Mr. Oberstar. This is a $40 billion program, $20 billion is 
going to have to be born by industry itself.
    Mr. May. That is right.
    Mr. Oberstar. Your response was very important that you 
cannot just break out pieces that are the most beneficial; 
there is some sort of sequencing that has to happen as FAA has 
laid it out in order for industry to get these real world 
benefits that we all want and are hoping for. But when you say 
redesign, not yet again, the New York airspace.
    Mr. May. Sir, it has not been redesigned yet.
    Mr. Oberstar. That is the point. There have been at least 
five redesigns that I am aware of, that I have lived through 
that have never been implemented.
    Mr. May. Right. But it is one of the many precursors to 
deploying NextGen technology in the New York metropolitan 
market.
    Mr. Oberstar. Mr. Wright, are you controllers being 
included in the early phase of design and engineering? You have 
probably answered this. I know Mr. Costello is very keen on 
this issue, as I am, have been. But do you see your members 
being included in the earliest design and engineering phases of 
these various elements of NextGen?
    Mr. Wright. No, sir.
    Mr. Oberstar. No?
    Mr. Wright. No.
    Mr. Oberstar. They have not learned?
    Mr. Wright. We have asked to be involved. A lot of the 
airspace redesign things were back when we were involved and 
now they are sort of cherry picking what they want. But like 
Mr. May said, you cannot take part of it. It all has to go 
together. And we have not been involved in that, no, sir.
    Mr. Oberstar. It cost several hundred million dollars to 
redo pieces of STARS because when the FAA directed Raytheon, 
the contractor, to make certain changes, they went and made the 
changes. And then they brought in the controllers after and 
they said oh, no, these are the wrong changes, these are wrong 
things to do, and they had to go back and do it all over again.
    Now, it is not the contractor doing this. It is the FAA not 
engaging controllers who are the point of contact in the very 
earliest stages of design and engineering of these very complex 
systems. I am disappointed to hear you, not disappointed you 
are saying it, disappointed they are not doing it.
    Mr. Wright. Yes, sir. We asked for a formal briefing on the 
implementation of ADS-B, what is really the cornerstone of 
NextGen, and they----
    Mr. Oberstar. Maybe you could ask Mr. Planzer why they are 
not doing it. He was there at FAA when a lot of this was 
happening. You probably do not want to ask him, but I can.
    Neil, what is happening over there? Have they not learned 
anything?
    Mr. Planzer. This Committee over the past decade has 
offered up gifts to the Executive Branch at the FAA to proceed 
with implementation. And it seems to me the cycle in the 
organization is several years before that gift that is offered 
up is understood and accepted. So I would offer to you, sir, 
when I was in charge of requirements at the FAA 15 years ago, 
we had liaisons from NATCA in every part and parcel. There are 
lots of reasons they do not have them today. But the reality 
is, I would argue on this issue with Dale, that you need to 
have that integration woven through the fabric. It is not 
there. The reason I push metrics, the metrics forces you to 
understand that it will achieve those outcomes by how you are 
going to have to operate. You cannot legislate good management. 
You can legislate good metrics.
    Mr. Oberstar. You can legislate good structure of 
organization. What do you mean by metrics? That is a rather 
loosely used term to cover a wide variety of things that people 
suspect someone else understands what they are saying when they 
say metrics.
    Mr. Planzer. The example I used, sir, was require 
navigational performance, RNP, where we have put out thousands 
of overlays and the metrics that was used to measure it was how 
many of these have we put out.
    Mr. Oberstar. You mean the measurement unit?
    Mr. Planzer. That is the measurement. It is the wrong 
measurement. The measurement should be has the procedures 
reduced the use of fuel, has it reduced emission, has it 
reduced city-pair time, has it improved safety. Those are the 
types of outcomes you want to measure.
    Another measure that seems to be controversial that I will 
represent from my own point of view is does it reduce the unit 
cost of operations for the FAA. If you look at those metrics, 
they will force you as an employee--I get metrics measurements 
every day and I can look at them and know how I am going to be 
evaluated, and I operate the organizational structure to meet 
those outcomes, not the activity.
    For us at this table, activity is not success, only the 
positive outcome. That is what I mean by the right 
measurements. So if I know, you used the Raytheon example which 
I am familiar with, I would offer to you that if my outcome was 
on time deployment, with agreement from the employees to 
utilize this equipment and a comfort level and I did not do it 
the way you described, then I would be in trouble. So it forces 
me to have as that metric a relationship with the union. I am 
not going to argue whether what they want is not right, I am 
not going to argue whether the contractor is not right, but it 
forces me to have a compromise and also forces Dale to 
understand that that metric is there.
    Mr. Oberstar. That is a very much appreciated candid 
answer. Mr. Bolen, do you think general aviation is going to 
benefit?
    Mr. Bolen. I do think general aviation will benefit and a 
couple of reasons----
    Mr. Oberstar. You did not have very many hopeful signs in 
your testimony about this, the costs but not a whole lot of 
benefits for general aviation, including not being able to 
operate out of National Airport. What did you say, 300 flights?
    Mr. Bolen. Three hundred flights, yes.
    Mr. Oberstar. Maybe if we changed the name of the airport 
you would be able to get in more frequently.
    Mr. Bolen. I will leave that to you, sir.
    [Laughter.]
    Mr. Oberstar. Very wise answer.
    Mr. Bolen. The thought behind moving toward NextGen is that 
it will increase system capacity. That is very important to 
general aviation because what we have seen is that anytime 
there is congestion at airports or in airspace we effectively 
get squeezed out. If you go back and look at Midway Airport, it 
was an outstanding general aviation airport. It no longer is. 
We have seen the same thing in San Jose. We have seen the same 
thing in Manchester. We have seen it at Fort Lauderdale. We end 
up at secondary airports, tertiary airports getting pushed 
further and further out.
    Our hope is that if we expand system capacity we will be 
able to participate in that capacity and we will be able to 
have access to airports and air space. The way it is today, we 
are effectively 4 percent of the traffic at the 10 busiest 
airports. We would like an opportunity to have greater access. 
We also see clearly that there is an opportunity to have safety 
improved throughout the system, precision access at a number of 
general aviation airports where we do not have it today, and we 
see fuel system savings across the board. So we are supportive 
of the move to NextGen.
    Mr. Oberstar. Well, all of you can be very helpful by 
walking 200 meters across the front of the Capitol and telling 
the Senate to move the aviation bill. We passed it twice 
through the House and it sits over there just like the dead 
letter office. It is just frustrating to me beyond expression 
of my exasperation. If we do not get that bill passed and the 
authorization in place for the funding increases that you need 
to make these investments, then we are not going to achieve all 
these benefits that you are talking about. Well, thank you.
    Mr. Chairman, keep up the heat on them. Mr. Petri, keep up 
the heat on them.
    Mr. Costello. Chairman Oberstar, thank you. And just for 
the record, I call the other body the black hole. Everything 
that goes over there disappears and never comes back.
    Mr. Oberstar. That is right. And no light even comes out of 
the galactic black hole, not even light. We are not even 
getting that out of the other body.
    Mr. Ehlers. Mr. Chairman, as a physicist, I guess I object 
to denigrating that as a black hole. With a black hole you get 
energy out. In this case we get nothing.
    [Laughter.]
    Mr. Oberstar. Mr. Ehlers, thank you. With your scientific 
mind you can help us. You are right, we should not denigrate 
black holes by likening them to the Senate.
    Mr. Costello. Maybe we should start calling it the Bermuda 
Triangle.
    Any other Members have questions for this panel? If not, 
gentlemen, let me thank you for offering your testimony here 
today. It has been very helpful. Let me assure you, as I did 
the first panel, that we will continue to monitor the progress 
of NextGen and will make certain, as he always does, that 
General Scovel will be reporting to our Subcommittee. We will 
keep the heat on the FAA to try and move this process forward 
and do it in a responsible manner. And I would reiterate what 
Chairman Oberstar said, to please pick up the telephone or walk 
across the Capitol to the other body and encourage them to pass 
the reauthorization bill. We have been told several times how 
close they are to taking the bill up in Committee and reporting 
it to the floor. But we have not seen any progress or action as 
of this date. Again, we thank you for your testimony.
    The Subcommittee stands adjourned.
    [Whereupon, at 4:45 p.m., the Subcommittee was adjourned.]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    [GRAPHIC] [TIFF OMITTED] T3122.210


</pre></body></html>
